<html>
<title> - MISSILE PROLIFERATION IN THE INFORMATION AGE</title>
<body><pre>[Senate Hearing 105-268]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-268


 
                      MISSILE PROLIFERATION IN THE
                            INFORMATION AGE

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs





                      U.S. GOVERNMENT PRINING OFFICE
 44-228 cc                   WASHINGTON : 1997
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk
                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                Linda Gustitus, Minority Staff Director
                       Julie Sander, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Levin................................................     3

                               WITNESSES
                       Monday, September 22, 1997

William R. Graham, Former Science Advisor to President Reagan and 
  Former Deputy Administrator of NASA............................     4
    Prepared statement...........................................    12
W. Seth Carus, Visiting Fellow, National Defense University......    18
    Prepared statement...........................................    25
General Bernard A. Schriever, USAF (Ret), prepared statement.....    31




              MISSILE PROLIFERATION IN THE INFORMATION AGE

                              ----------                              


                       MONDAY, SEPTEMBER 22, 1997

                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. If we could please come to order. I want 
to welcome everybody to today's hearing of the Governmental 
Affairs Subcommittee on International Security, Proliferation, 
and Federal Services.
    The topic of our hearing this morning is missile 
proliferation in the information age. We live in a time of 
rapid technological change. The computers on our desktops have 
computational and storage capabilities that were not just 
unheard of, but undreamed of, only a generation ago. The 
Internet has magnified those advances by linking hundreds of 
thousands of computers and putting those resources at our 
fingertips.
    New constellations of satellites are being constructed 
which will put us all in instantaneous and constant 
communication with each other. Already, Global Positioning 
System navigation satellites have enabled humans, for the first 
time in history, to know precisely where they are at all times, 
anywhere in the world, using a device that now costs about 
$100.
    We must acknowledge, however, that there are negative 
consequences from the coupling of rapid technological advances 
with the information age. These advances make it easier for 
adversaries of the United States to obtain the means to 
threaten our interests, and perhaps our homeland as well. The 
same personal computer technology that enhances our lives also 
makes it easier for less technologically advanced adversaries 
to design and build weapons that put the United States at risk.
    The Internet puts the technical resources of the United 
States, and those of other countries, at the disposal of anyone 
with a telephone line.
    NASA, for example, maintains a database of over 2 million 
technical documents, including detailed reports on the 
construction of long-range ballistic missiles, available to 
anyone with access to the World Wide Web. The U.S. Global 
Positioning System may help ensure that a hiker is never lost 
in the woods, but it also can aid adversaries in solving one of 
the most critical challenges in building a long-range missile, 
the problem of missile guidance.
    Sophisticated hardware, too, is increasingly available and 
affordable to those who are seeking it. Much of what was once 
available only for military applications is now openly sold on 
the commercial market. For example, in an innovative 
countermeasures program, a small team of junior engineers at 
the Air Force Phillips Laboratory has successfully procured 
radar-absorbing material, inertial measurement units, rocket 
motors, heat shield materials, and a multitude of other 
components critical for building ballistic missiles, all 
without identifying their government affiliation. They have 
even managed to design and build a fully capable cruise 
missile, using only publicly available information and 
materials.
    And some critical components are being sold on the black 
market. Within the last 10 days, news reports have once again 
detailed how guidance components from ICBMs dismantled under 
the START treaty were shipped to Iraq to aid in that country's 
development of long-range ballistic missiles. The ready 
availability of components from some of the most threatening 
weapons in the Russian arsenal underscores the seriousness of 
this proliferation problem.
    And the problem appears to be getting worse. The Central 
Intelligence Agency reported in June of this year, and I am 
going to quote, ``. . . countries determined to maintain 
[weapons of mass destruction] programs over the long term have 
been placing significant emphasis on securing their programs 
against interdiction and disruption. In response to broader, 
more effective export controls, these countries have been 
trying to reduce their dependence by developing an indigenous 
production capability. Many third world countries--with Iran 
being the most prominent example--are responding to Western 
counter-proliferation efforts by relying more on legitimate 
commercial firms as procurement fronts and by developing more 
convoluted procurement networks.''
    The United States has good reason to be proud of both its 
technical accomplishments and its willingness to share these 
accomplishments with the rest of the world. America cannot, 
however, ignore the potential consequences for American 
security that are inherent in this openness. Much of the 
sophisticated technology that is the cornerstone of our 
security had to be invented by the United States. That same 
technology is increasingly available to the rest of the world, 
both allies and adversaries alike. And the record of America's 
intelligence agencies in predicting how quickly our adversaries 
will acquire advanced technology has been mixed. In the last 2 
weeks, there have been very disturbing news reports based on 
Israeli intelligence, that the Russian and Chinese scientific 
establishments have been helping Iran develop long-range 
ballistic missiles that could reach Central Europe within 3 
years.
    The fact is that the United States can be threatened by 
technology other than the most advanced. Older technology, in 
some cases 40 to 50 years old, is capable of presenting a 
severe threat to the United States. It was 40 years ago that 
the Atlas ICBM, America's first long-range missile, was built. 
Relatively old technology, now more easily available, should 
not be overlooked in its potential to threaten America and 
American interests.
    This hearing, then, will examine the extent to which 
technological information, materials, and other resources that 
make possible the proliferation of ballistic missiles are 
available, both on the open and the black markets.
    We are fortunate to have with us today Dr. William Graham, 
who served as science advisor to President Reagan and as Deputy 
Administrator of NASA, and Dr. W. Seth Carus, who is a visiting 
fellow at the National Defense University. He is also a well-
known expert on proliferation.
    Because the hearing had to be postponed from our scheduled 
date last week, our third witness, retired Air Force General 
Bernard Schriever, who built America's first Intercontinental 
Ballistic Missile, is unable to be with us today, but he has 
asked Dr. Graham to present his statement for the record.
    Before we begin, let me note that while we intend to 
examine the problem of proliferation in the information age, we 
do not intend to make the problem easier to solve for 
proliferators. We will not say specifically where some of this 
information can be found, and we have asked the witnesses to be 
sensitive to this challenge, also. If necessary, we will 
compile these sources, though all are unclassified, in a 
classified addendum in the hearing record.
    Senator Cochran. Before we begin, I'll turn to my 
distinguished colleague and Senator from Michigan, the Ranking 
Member, Senator Levin is recognized.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and I will be 
brief.
    First, as you have noted, this hearing concerns an issue 
that is highly significant to America's security, the 
proliferation of missiles and missile technology and 
information that could lead to the acquisition or the creation 
of that technology. Both the Congress and the executive branch 
in the last two administrations have devoted a great deal of 
energy to this issue because of the threat to ourselves and our 
allies in the world of the proliferation of missiles, missile 
technology, and information.
    It is rightfully one of the highest, if not the highest 
national security priorities, and we have focussed significant 
resources and intelligence efforts to address this problem.
    We have done it in many ways, including trying to convince 
other nations that missile proliferation is a threat to 
international stability and security, and we have encouraged 
other countries to join the missile technology control regime. 
We have had some success in reducing the potential threat from 
weapons of mass destruction in the states of the former Soviet 
Union, through the Nunn-Lugar Cooperative Threat Reduction 
Program, which is administered by the Department of Defense, as 
well as companion programs that are administered by the 
Department of Energy and the State Department.
    For instance, this Cooperative Threat Reduction Program has 
helped to make Ukraine, Belarus, and Kazakhstan nuclear-free 
states, after they first inherited thousands of nuclear weapons 
from the collapse of the Soviet Union. We have recently reached 
about the $4-billion-per-year level in spending on the 
development and the deployment of defenses against ballistic 
missiles, and we are working hard to prepare counter-
proliferation options that will be available if necessary 
before missiles are launched against the United States or our 
allies.
    As hard as we try, there are going to be determined 
governments which are going to challenge our efforts, and we 
will devote sufficient resources and patience in order to 
achieve some level of missile capability. That is the challenge 
ahead of us. It is to try to stop those nations, particularly 
nations which could threaten neighbors or other countries in 
the world with missiles and who might actually use such 
missiles.
    We are facing a problem, a particular problem in the 
information age. The proliferation of missiles is made more 
difficult by the proliferation of information, and that is one 
of the focusses of this morning's hearing. It is the 
proliferation of information which is directly connected, short 
term and even more so in the long term, to the proliferation of 
missiles, and the question is to what extent do we focus on the 
information explosion to try to somehow contain that and keep 
that from getting into the hands of people who would misuse it, 
and to what extent do we put our efforts into trying to prevent 
the technologies from falling into their hands. It is that 
balance of efforts.
    We have got to do both, but the question is, like 
everything else, when you have to put your focus in one place 
and your secondary focus somewhere else, what should be our 
focus, what specific actions should this government take that 
we are now not taking, what actions should the rest of the 
world take that maybe we can encourage and indeed help achieve 
through one means or another which will reduce the threat of 
the proliferation of weapons of mass destruction which I think 
is the major threat, the new threat that we face in this 
Nation.
    So this is a very important subject, and I am glad that you 
are having a hearing such as this, this morning, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator Levin, for 
your comments and your participation in these hearings.
    Dr. Graham, welcome. You may proceed.

   TESTIMONY OF WILLIAM R. GRAHAM, FORMER SCIENCE ADVISOR TO 
    PRESIDENT REAGAN AND FORMER DEPUTY ADMINISTRATOR OF NASA

    Mr. Graham. Thank you very much, Chairman Cochran and 
Senator Levin. I am pleased to be able to testify here this 
morning on the availability of long-range missile technology 
throughout the world today, and as the Chairman said, when I 
finish this testimony, I will be glad to present General 
Schriever's testimony as well. He sends his apology and regret 
that he had an unfortunate conflict in his schedule and was not 
able to be here today.
    It was 50 years ago that long-range ballistic missile 
technology was an arcane and largely unexplored field. However, 
in the last 50 years, we have seen enormous investments of 
manpower and resources in this area, and today, several 
generations of ballistic missile technology have been developed 
and deployed.
    During and immediately after World War II, ballistic 
missile technology was treated by governments as a secret field 
of research. Since that time, however, the need to educate, 
train, and maintain a large cadre of ballistic missile and 
space launch specialists, together with the relaxation of 
government restrictions on the dissemination of ballistic 
missile technology, hardware, software, and trained personnel, 
have made useful knowledge of the subject widely available.
    Today, opportunities for developing countries to acquire 
long-range ballistic missile technology are at an all-time 
high. The current situation is the result of the confluence of 
at least five sources of opportunity; I will mention each one 
of these and then give an example or two of each in my 
testimony.
    Long-range ballistic missile technology is available from 
widely disseminated sources, as Senator Cochran mentioned.
    Education in long-range ballistic missile technology is 
openly available to students from throughout the world.
    Long-range ballistic missile hardware and software are 
openly available in the United States and throughout the world.
    Scientists, engineers, and technicians experienced in long-
range ballistic missile technology are available to assist 
developing countries.
    Most important, and sometimes overlooked, it has been known 
for over 40 years that it is possible to build ballistic 
missiles of intercontinental range that can carry hundreds to 
thousands of pounds of payload and deliver it with a high 
degree of accuracy.
    I will address each of these opportunities in turn and show 
how they are used to overcome barriers in ballistic missile 
development in key areas that include rocket propulsion, 
lightweight structures, guidance and navigation, missile 
staging, reentry vehicles, and systems integration.
    First, let me mention briefly the availability of long-
range ballistic missile technical information. In surveying the 
availability of such information on a worldwide basis, it is 
important to note that there is a technological continuum 
between short-range, intermediate-range, and long-range 
systems, and technical information that applies to one range 
usually applies to the other ranges as well.
    I will give you one example of the type of information 
available on the Internet and the great depth and breadth of 
technical documentation that can be found there. I will just 
read part of something that I downloaded from the Internet. The 
full download is in my testimony transcript.
    I will not give the reference of this. However, as you have 
suggested, Mr. Chairman, I can provide that for an annex, if 
you wish. ``The Aerospace Database is the electronic version of 
the International Aerospace Abstracts,'' and I continue to 
quote, ``It also contains abstracts of reports issued by NASA, 
other U.S. Government agencies, international institutions, 
universities, and private firms.''
    ``Dating back to 1962, the online Aerospace Database 
contains more than 2 million references that you can search and 
retrieve easily and cost effectively. And you can quickly 
access them on a modem-equipped computer terminal. Once you 
have located the reference you want, you can obtain a photocopy 
or microfiche of the full text from . . .,'' the agency that 
put up this page.
    However, some places do not have good telecommunications, 
and they have made provision for that. They say, ``The CD-ROM 
version of our database is the cost-effective solution for 
frequent database users. An especially good bargain for 
international subscribers, it lets you avoid the 
telecommunications requirements and costly connection charges 
of online service.''
    They go on to mention what is on the CD-ROM, which includes 
an in-depth coverage of aeronautics, astronautics, space 
sciences, chemistry and materials, engineering, mathematics, 
and computer sciences, as well as others. They then give 
instructions on how to subscribe to this service.
    U.S. Government agencies are also a rich source of 
unclassified technical information in missile technology. For 
example, a small sample of online NASA document listings--and 
this is a very small sample compared to what is available--
includes guidance of ballistic flight vehicles, experimental 
development and testing of missiles, solid propellant ballistic 
missiles, ballistic missile design, computation of reentry 
trajectories for a single ballistic missile, and design of 
missile flight tests in terms of estimation of errors derived, 
or how accurately you can hit targets.
    The U.S. Patent Office is another substantial source of 
information on missile technology, and of course, it is not 
only the United States, but all patent offices of the developed 
countries have this same property. An online search of patents 
was conducted for the key words ``missile'' and ``ballistic.'' 
A search time of 1.15 seconds was required to produce the 
following hits, and this is the summary of what was found. 
Under ``missile,'' we found 4,400 occurrences in 1,651 patents; 
``guidance,'' 5,021 occurrences in 3,160 patents; ``missiles 
and guidance,'' 255 patents.
    Of those 255, I have abstracted about 10 on the list here, 
which include: ballistic missile structure simulator; method 
for guiding the final phase of ballistic missiles; methods and 
apparatus for reducing ballistic missile range errors due to 
viscosity uncertainties, air drag in particular; Polaris--you 
will recall our first sublaunch ballistic missile--Polaris 
guidance system; ballistic missile remote targeting system and 
method; missile warheads; propellant grain design; a method for 
compensating for atmospheric perturbations; thrust vector 
controls for steering missiles; and method and an apparatus for 
spreading warheads, spreading out multiple warheads from a 
missile. Those are all open patents available through the 
online facilities of the U.S. Patent Office.
    There is a patent classification security process, by the 
way, that is available in the United States, and patents can be 
filed under that. However, the patents shown in my submission 
have been released from that security system.
    Let me go on to address the second point which is 
educational opportunities that support long-range ballistic 
missile acquisition.
    Since 1954, there has been a steady increase in the number 
of foreign students studying at American universities. In 1954, 
there were about 40,000 foreign students in the United States. 
By 1994, 40 years later, the number was 450,000, more than a 
ten-fold increase. Recent studies by the National Science 
Foundation and the Institute of International Education show 
trends in several areas: the subject matter being studied, the 
level of study, and changes in the national origin of the 
foreign student body.
    According to the Institute of International Education, for 
the 1993 academic year, 45 percent of all foreign students in 
the United States were studying at the graduate level. This is 
an increase of about 10 percent over the level in 1990. These 
students were studying at the highest levels of our educational 
institutions.
    The figures show that foreign graduate students are more 
likely than Americans to study science and engineering. In 
1995, the foreign student population earned 43 percent of U.S. 
doctoral degrees in the physical sciences and 58 percent of the 
degrees in engineering. Similarly, foreign students received 
half of the mathematics doctorates and nearly half of all 
computer science doctorates. By comparison, in the same period 
only 23 percent of the social and behavioral sciences 
doctorates were awarded to foreign-born students.
    Mainland China continues to contribute the highest number 
of foreign students, a number that has stood consistently at 
about 10 percent of all students.
    The National Science Foundation estimates that as many as 
half of all science and engineering graduates return to their 
country of origin.
    When I was last in the government, Mr. Chairman, which was 
a decade ago, there was, in fact, some imperative from U.S. 
Government agencies to have these graduate students return to 
their country of origin after they had been educated in 
advanced technologies here.
    According to the annual report of the Visa Office of the 
State Department's Immigration and Naturalization Service, the 
following number of non-immigrant visas have been issued in 
Category F, which is students and their dependents, since 1984 
for the countries indicated. To give you a sample of the 
countries we are educating in technologies: North Korea, 98 
visas; Iran, 16,854; Iraq, 2,007; Libya, 408; Syria, 9,308 
visas; and China, 121,952. As far as I have been able to tell, 
Mr. Chairman, neither the State Department nor the Immigration 
and Naturalization Service nor anyone else tracks the actual 
course of study of any of these students once they are given 
student visas to come into the United States.
    Postgraduate education in aerospace science and engineering 
in the United States includes a wide range of subjects relevant 
to long-range ballistic missiles, and I have just looked in the 
online Internet catalog of one of our leading State 
universities and listed various courses that they give at the 
graduate level: astrodynamics, spacecraft attitude dynamics and 
control, atmospheric flight methods, and so on.
    I pulled up the prospectus for the course listed under 
atmospheric flight control, which you might think relates just 
to aircraft, and it says ``exposure to flight guidance and 
control, draws heavily from vehicle dynamics as well as 
feedback theory, careful treatment of the nonlinear aspects of 
the problem is critical. Conventional synthesis techniques are 
stressed, although modern methods are not ignored. Multivariate 
systems analysis is included, along with flight-control design 
objectives and hardware limitations. Emphasis on aircraft and 
missiles,'' not just in aircraft study. I list another 10 or 12 
courses, all relevant to missiles as well as aircraft design.
    Professional societies are now largely worldwide 
organizations and provide not only for the exchange of state-
of-the-art information, but for the continuing education of 
their members.
    I pulled up from the Internet one of the leading society's 
web page, and they discuss their international outreach there. 
In the international outreach, they say, the organization ``. . 
. is the premier professional society for aerospace engineers, 
scientists, designers, and other professionals, serving more 
than 30,000 members worldwide. Our global range encompasses 
seminars and conferences held at sites throughout the world; 
technical papers, books, and journals published by 
international authors, and the Aerospace Database,'' which was 
referenced before, ``with over 2 million aerospace citations 
accessible via the World Wide Web.''
    This organization ``. . . is dedicated to forging 
meaningful information exchange between crucial players on the 
world's aerospace stage.''
    They say, ``We strive to make our events, publications, and 
services relevant to aerospace professionals everywhere,'' and 
under conferences and seminars, they go on to say that the 
society's international work centers are organized, sponsored, 
or cosponsored for international conferences or seminars, 
including a list of events that they give for 1996, which 
include the Third International Symposium on Experimental and 
Computational Aerothermodynamics of Internal Flows--subject is 
useful in the design of jet engines and also rocket engines. 
That conference was at Beijing, China. The professional 
organization also sponsored the Seventh International 
Spaceplanes and Hypersonic Systems and Technologies Conference 
at Norfolk, Virginia.
    They also provide continuing education for aerospace 
professionals, and they note that they have over 25 
professional development courses taught by internationally 
renowned experts and attended by aerospace professionals from 
around the world. ``Home courses of study are an excellent way 
to enhance your career without expensive travel costs.''
    In addition to that, they publish books which are excellent 
reference textbooks on ballistic missile design. Some of them, 
a few, are here with me.
    Senator Cochran. I suggested to Senator Levin a minute ago 
that that might be our assigned reading that you brought to us, 
and we will invite all of the Members of our Subcommittee to 
check out those books.
    Mr. Graham. Very good.
    Senator Levin. I wonder if we could make those books a part 
of the record, Mr. Chairman. I am just kidding.
    Senator Cochran. Well, we appreciate you bringing that to 
our attention.
    Mr. Graham. We can provide for a closed-book test at the 
end of the hearing, if you wish, Senator. I think it should be 
given to the witnesses as well as the Members.
    This is typical of the extent to which ballistic missile 
technology has diffused and is moving around the world today. 
There is literally no reason that anyone interested in the 
technology cannot educate himself in the field, either here in 
the United States or at home in another country.
    Ballistic missile hardware is also available widely. Each 
year, the Defense Department must dispose of used, obsolete, 
and surplus military equipment that when new cost tens of 
billions of dollars. Some of the equipment is sold as-is, and 
some is sold only after it has been made nonfunctional or 
reduced to scrap. With such a high volume of surplus and the 
emphasis that has been established on profits from its sale, 
not all key technologies and equipment are demilitarized and 
rendered useless before sold, not even the ones that in 
retrospect should have been demilitarized or rendered useless.
    The government provides a guide for purchasing surplus 
military equipment entitled ``How to Buy Surplus Personal 
Property from the United States Department of Defense,'' put 
out by the Defense Reutilization and Marketing Service. The 
November 1994 edition, for example, which was the most current 
one I was able to get on short notice, lists two categories of 
particular interest to this hearing. One is Category 1440 which 
includes guided missile, launchers, components, and remote 
control systems; and the other is category 1450, guided missile 
handling and service equipment.
    One of the entries in these categories is shown here: a 
console used in the service equipment category to test 
assemblies from the LGM-30 missile. The LGM-30 missile is more 
commonly known as the Minuteman missile, and this is a piece of 
test equipment that was being sold for that purpose.
    That item's listing had left the Internet by the time I 
went to the site, but I found another one there that I show in 
my testimony, which is a recorder-reproducer electronic data 
processing unit, made by the Boeing company for the LGM-30 
Minuteman missile, and it looks to me like a device used for 
transferring data in and out of the LGM-30 Minuteman missile 
system.
    When surplus dealers purchase such equipment, it often 
enters the commercial market. Here is a receipt for two missile 
steering motors purchased for $100 each from a surplus dealer 
that happened to be in Southern California. These are, indeed, 
rocket motors designed for the control function of missiles and 
space-launch vehicles.
    For several years, China has been one of the major buyers 
of----
    Senator Cochran. And they were purchased for $100 each?
    Mr. Graham. It was $100 each, yes. I have no idea what they 
cost to build, but I would say if it were only a thousand times 
that much, it would be surprising.
    For several years, China has been one of the major buyers 
of U.S. surplus military equipment, and ships scrap and not 
scrap material directly to China in large storage containers.
    Sales of military equipment, of course, are not limited to 
the U.S. Government by any means. As a result of the difficult 
economic conditions prevailing in Russia and other states of 
the former Soviet Union today, more than surplus military 
equipment, that is, military equipment which is fully 
functional and with the operational forces, is for sale and 
often at very low prices.
    In addition, the atmosphere of pervasive criminality in 
Russia today, coupled with the uncertain future of the Russian 
economy and government, has created an environment in which 
military hardware and technology flow into the developing world 
through both official and unofficial channels. Examples 
include: the official sale of cryogenic fuel rocket engines and 
technology to India; unofficially, presumably, the Russian 
long-range missile guidance components discovered in the Middle 
East in the last few years, particularly precision gyroscopes 
for missile navigation; several reports of a very large 
transfer of SS-18 missile technology to China; and recent 
reports of active assistance to the Iranian missile development 
program by both Russian and Chinese technologists. This list 
could continue, but the point is clear. Despite Russian 
official participation in missile-related arms control regimes, 
like the MTCR, access to Russian technology and know-how is 
available for proliferant states.
    This transfer of missile-related hardware does not end, 
however, just at subassemblies or components. Government-to-
government sales of complete ballistic missile systems have 
taken place and include the sale of the 3,000-kilometer class 
CSS-2 intermediate-range ballistic missile system by China to 
Saudi Arabia, the apparent sale of ground-mobile M-11 ballistic 
missiles by China to Pakistan, and the sale of SCUD missiles to 
Iran by North Korea. Note that particularly with these latter 
two sales, the ballistic missile trade is now taking place 
between countries of the developing world and does not require 
the direct cooperation of countries of the developed world to 
go forward.
    I am going to just mention briefly that ballistic missile 
software--computer programs--is also widely available, and 
available through the Internet as well as elsewhere.
    This graphic, also downloaded from the Internet, 
accompanies the following description of a product that is 
commercially available. The provider states: ``. . . (this) is 
our flagship product and is unique in the world of launch 
simulation programs. It combines a graphical user interface 
with accurate trajectory modeling, targeting and optimization. 
The analytical power of this package establishes a remarkably 
higher level of productivity for the user . . . (it) can model 
any rocket, missile, or launch vehicle from any planet,'' 
(presumably including the earth), ``to any set of burnout 
conditions. Comprehensive function allows the user to directly 
model the vehicle, optimize the trajectory, and cut and paste 
the resulting maps, charts, and summary statements into 
presentation charts or documents. The product is currently 
available for Windows 95 and Windows NT.''
    Another category of technical assistance for missile 
proliferators that I mentioned in the introduction was the 
availability of experienced scientists, engineers, and 
technicians. There is today a glut on the world market of both 
advanced hardware, including the components we mentioned, and 
skilled personnel to assist other nations in using that 
hardware and software. Many of these individuals were among the 
elite of the Soviet Union and now face deprivation and hardship 
if they do not take their skills abroad.
    Recent newspaper reports that I mentioned show the Chinese 
and Russian expertise helping Iran, and Dr. Carus, I believe, 
will address that point further.
    Let me give you just a sample biography of someone who was 
my counterpart when I was President Reagan's science advisor. 
This gentleman was the Secretary of the Department of Science 
and Technology in India at the time. I will just read you a 
little bit of his biography. Before he was the Secretary of 
Science and Technology, he was a visiting scholar at Stanford 
University, and before that, director of the Vicram Sarabati 
Space Center, the prime R&D center and the largest 
establishment of the Indian Space Research Organization. He 
obtained his M.S.C. and Ph.D. in chemical engineering from 
Birmingham University. Before going to the Space Center, he was 
with the United Kingdom Atomic Energy Authority, and with the 
Summerfield Research Station, an agency established by the 
British Ministry of Aviation, serving as a senior technical 
officer, and he was for many years on the Solid Rocket 
Technical Committee of the American Institute of Aeronautics 
and Astronautics.
    It goes on to show his other credits, but he is obviously a 
very competent individual, and very knowledgeable. He presented 
me with this book on polymer science when I was visiting India, 
and even though he was the Minister of Science and Technology, 
his principal interest was in the state of development of large 
solid rocket engines that we were building for ballistic 
missiles at the time.
    How to get started? The big picture of missile system 
development and integration is also available worldwide. The 
United States has published several documents that can be used 
as starter kits for long-range ballistic missile development. 
One such document, ``Short-Range Ballistic Missile Technology 
Infrastructure Requirement for Third-World Countries,'' put out 
by the Arnold Engineering Center, is a very complete and 
thorough analysis of the subject and I think an excellent 
introduction for U.S. intelligence; unfortunately, it is an 
excellent introduction for third-world proliferators as well.
    It shows, among other things, how to use commercial 
industries in a country as infrastructure to support ballistic 
missile system development. It lists its objectives, ``The 
primary objective of this report is to define the 
infrastructure required for an indigenous third-world country's 
short-range missile capability. These requirements are 
described in terms of the technology and hardware that 
compromise the design, manufacturing process, assembly, 
testing, and deployment of'' tactical short-range ballistic 
missiles. ``A secondary objective is to provide a training aide 
for ballistic missile fundamentals.'' NASA has published 
similar documents, Mr. Chairman.
    In view of the availability today of technical literature, 
education for students throughout the world, the world market 
in ballistic missile hardware and software, the availability of 
experienced scientists, engineers, and technicians, and the 
certain knowledge that long-range ballistic missiles can and 
have been built, there are no insurmountable barriers to any 
nation developing such a capability.
    As Germany demonstrated with its V-2 program and the United 
States and the U.S.S.R. with their intercontinental ballistic 
missile programs in the 1950's and 1960's, political will and 
national priority are the major determinants of the rapidity 
with which national ballistic missile programs are brought to 
operational status. Even North Korea, which is one of the 
poorest and most isolated of nations, unable to provide 
subsistence for many of its inhabitants, not only has been able 
to develop a series of increasingly longer-range ballistic 
missiles, but has become a major supplier of ballistic missiles 
and technology to some of the world's most irresponsible and 
hostile regimes.
    Other nations have demonstrated that it is possible to 
purchase complete, operational missile systems. Today, no 
missile development program will be obstructed by lack of 
capability or of opportunity, and several countries hostile to 
the United States are supporting their ballistic missile 
acquisition programs with national will and determination.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Graham follows:]

                    PREPARED STATEMENT OF MR. GRAHAM

 The Worldwide Availability of Long Range Ballistic Missile Technology
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to testify on the availability of long range 
ballistic missile technology throughout the world today.
    Fifty years ago, long range ballistic missile technology was an 
arcane and largely unexplored field. However, the last fifty years have 
seen an enormous investment of manpower and monetary resources in that 
area, so that today several generations of ballistic missile technology 
have been developed and deployed.
    During and immediately after WWII, ballistic missile technology was 
treated by governments as a secret field of research. Since that time, 
the need to educate, train, and maintain a large cadre of ballistic 
missile and space launch vehicle specialists, together with the 
relaxation of government restrictions on the dissemination of ballistic 
missile technology, hardware, software, and trained personnel, have 
made useful knowledge of the subject widely available.
    Today, opportunities for developing countries to acquire long range 
ballistic missiles are at an all-time high. The current situation is 
the result of the confluence of at least five sources of opportunity:

    <bullet> LLong range ballistic missile technology is available from 
widely disseminated sources.
    <bullet> LEducation in long range ballistic missile technology is 
openly available to students from throughout the world.
    <bullet> LLong range ballistic missile hardware and software are 
openly available in the United States and throughout the world.
    <bullet> LScientists, engineers, and technicians experienced in 
long range ballistic missile technology are available to assist 
developing countries.
    <bullet> LMost important, it has been known for over forty years 
that it is possible to build ballistic missiles of intercontinental 
range that can carry hundreds to thousands of pounds of payload with a 
high degree of accuracy.

    I will address each of these in turn, and discuss how these 
opportunities can be used to overcome the barriers to ballistic missile 
development in the key technological areas of rocket propulsion, 
lightweight structures, guidance and navigation, missile staging, 
reentry vehicles, and systems integration.
Availability of Long Range Ballistic Missile Technical Information
    In surveying the availability of long range ballistic missile 
technology worldwide, it is important to note that there is a 
technological continuum between short range and long range systems, and 
technical information that applies to one range usually applies to 
other ranges as well.
    The following is an example of the great depth and breadth of 
technical documentation available through the Internet for purchase and 
shipment worldwide:

          ``The Aerospace Database is the electronic version of 
        International Aerospace Abstracts. It also contains abstracts 
        of reports issued by NASA, other U.S. government agencies, 
        international institutions, universities, and private firms.

          ``Dating back to 1962, the online Aerospace Database contains 
        more than 2 million references that you can search and retrieve 
        easily and cost effectively. And you can quickly access them on 
        a modem-equipped computer terminal. Once you've located the 
        reference you want, you can obtain a photocopy or microfiche of 
        the full text from . . .

          ``The CD-ROM version of our database is the cost-effective 
        solution for frequent database users. An especially good 
        bargain for international subscribers, it lets you avoid the 
        telecommunications requirements and costly connection charges 
        of online service.

          ``The world's foremost source of scientific and technical 
        aerospace information available online or on CD-ROM anywhere in 
        the world. Access is available on a paid subscription basis 
        through . . .

          ``Updated monthly, the Aerospace Database online is perfect 
        for monitoring aerospace markets in other countries, gaining 
        access to the work of international aerospace leaders, staying 
        abreast of new products and trends, keeping up with emerging 
        technologies. In just seconds the Aerospace Database lets you 
        search more than 30 years of accumulated knowledge in aerospace 
        and related sciences. You'll find in-depth coverage of 
        aeronautics, astronautics, space sciences, chemistry and 
        materials, geosciences, life sciences, mathematics, and 
        computer sciences.

          ``You'll have the convenience of using the CD-ROM at your 
        desktop. No costly connection charges. Just an easy to use CD-
        ROM for your own personal use. . . . Aerospace scientists and 
        engineers will find in-depth coverage of:

        <bullet> Laeronautics
        <bullet> Lastronautics
        <bullet> Lspace sciences
        <bullet> Lchemistry and materials
        <bullet> Lengineering
        <bullet> Lgeosciences
        <bullet> Llife sciences
        <bullet> Lmathematics
        <bullet> Lcomputer sciences

    ``Key Features:

          ``Sort your search results by title, journal name, author, 
        year of publication, or conference title. Use the Journal Name 
        index for fast selection of articles. Track articles by 
        original language of publication. Limit your search with 
        Conference Papers Only, Conference Title, Conference Sponsor, 
        or Conference Year.

          ``To subscribe, contact . . .''

    U.S. government agencies are also a rich source of unclassified 
technical information. For example, a small sample of on-line NASA 
document listings include:

          Guidance of Ballistic Flight Vehicles

          Experimental Development and Testing of Missiles

          Solid Propellant Ballistic Missiles

          Ballistic Missile Design

          Computation of the Reentry Trajectory of a Single Ballistic 
        Missile

          Design of the Missile Flight Tests in terms of Estimation of 
        Errors Derived

    The U.S. Patent Office is another substantial source of information 
on missile technology. An on-line search of patents was conducted for 
the key words missile and ballistic. A search time of 1.15 seconds was 
required to produce the following hits:

Search Summary:

          Missile: 4400 occurrences in 1,651 patents.

          Guidance: 5021 occurrences in 3,160 patents.

          (Missile AND Guidance): 255 patents.

    Ten of the 255 patents identified are listed below:

    Patent No. and Title:

    4,465,464    Ballistic missile structure simulator
    4,220,296    Method for guiding the final phase of ballistic 
missiles
    3,990,657    LMethod and apparatus for reducing ballistic missile 
range errors due to Viscosity Uncertainties
    4,476,562    Polaris guidance system
    5,544,843    Ballistic missile remote targeting system and method
    4,664,035    Missile warheads
    4,936,092    Propellant grain design
    4,111,382    LApparatus for compensating a ballistic missile for 
atmospheric perturbations
    5,662,290    Mechanism for thrust vector control using multiple 
nozzles
    5,619,010    Method and an apparatus for spreading warheads

Educational Opportunities Supporting Long Range Ballistic Missile 
        Acquisition
    Since 1954 there has been a steady increase in the number of 
foreign students studying at American universities. In 1954, there were 
about 40,000 foreign students in the United States. By 1994, the number 
was 450,000, more than a ten-fold increase. Recent studies by the 
National Science Foundation (NSF)\1\ and the Institute of International 
Education (IIE)\2\ show trends in several areas: the subject matter 
being studied, the level of study, and changes in the national origin 
of the foreign student body.
---------------------------------------------------------------------------
    \1\ U.S. National Science Foundation, Immigrant Scientists, 
Engineers, and Technician: 1993. Division of Science Resource Studies, 
NSF96-322 (Washington, DC: 1996)
    \2\ Institute of International Education, Open Doors 1993-1994. 
(New York: 1994)

    <bullet> LAccording to the IIE study, for the 1993 academic year, 
45 percent of all foreign students in the United States were studying 
at the graduate level, an increase of 10 percent over the level 
recorded in 1990.
    <bullet> LThe figures show that foreign graduate students are more 
likely than Americans to study science and engineering. In 1995, the 
foreign student population earned 43 percent of the doctoral degrees in 
the physical sciences, and 58 percent of the doctoral degrees in 
engineering.\3\ Similarly, foreign students received 50 percent of the 
mathematics doctorates and 49 percent of all computer science doctoral 
degrees. By comparison, in the same period only 23 percent of the 
social and behavioral doctorates were awarded to foreign-born students.
---------------------------------------------------------------------------
    \3\ U.S. National Science Foundation, Selected Data on Science and 
Engineering Awards, 1995. NSF96-303 (Washington, DC: 1996) P. 46-49.
---------------------------------------------------------------------------
    <bullet> LMainland China continues to contribute the highest number 
of foreign students, a number that has stood consistently at about 10 
percent of all foreign students.
    <bullet> LThe NSF estimates that as many as half of all Science and 
Engineering graduates return to their country of origin.

    According to the annual report of the Visa Office of the State 
Department's Immigration and Naturalization Service, the following 
number of non-immigrant visas have been issued in Category F (Students 
and Dependents) since 1984 for the countries indicated:

        <bullet> LNorth Korea: 98
        <bullet> LIran: 16,854
        <bullet> LIraq: 2,007
        <bullet> LLibya: 408
        <bullet> LSyria: 9,308
        <bullet> LChina: 121,952
Post-Graduate Education in Aerospace Science and Engineering in the 
        United States
    The U.S. Government does not track what foreign students are 
actually studying at our universities; however, a visit to the 
classrooms of leading technical graduate schools suggests that courses 
in the most advanced aerospace and other related fields are very 
popular. Typical of the courses available is the following list from 
the graduate school of a leading state university, with one, 
Atmospheric Flight Control, shown with its description emphasizing its 
application to both aircraft and missiles:

          601--Astrodynamics
          602--Spacecraft Attitude Dynamics and Control
          640--Atmospheric Flight Mechanics
          641--Linear Systems Dynamics
          642--Atmospheric Flight Control

          Exposure to flight guidance and control. Draws heavily from 
        vehicle dynamics as well as feedback theory, and careful 
        treatment of the non-linear aspects of the problems is 
        critical. Conventional synthesis techniques are stressed, 
        although modern methods are not ignored. Multivariable system 
        analysis is included along with fight-control design objectives 
        and hardware limitations. Emphasis on aircraft and missiles.

          643--Digital Control
          644--Optimal Control of Aerospace Systems
          650--Variational Methods in Structural Mechanics
          651--Smart Structures
          652--Finite Element Method in Engineering
          653--Nonlinear Finite Element Analysis of Continua
          654--Composite Structures
          655--Structural Dynamics
          656--Aeroelasticity
          657--Theory of Structural Stability
          661--Advanced Propulsion
          662--Advanced Propulsion II

    All of these courses provide education in key missile-related 
areas.
Professional Societies
    Professional societies in aeronautics and astronautics have become 
international organizations in their membership and technical 
activities. They provide a rich source of technical information and 
post-university training worldwide. The following information, taken 
from the Internet, describes a few of the programs of one of the 
leading professional societies:

``International Outreach

          ``. . . is the premier professional society for aerospace 
        engineers, scientists, designers, and other professionals, 
        serving more than 30,000 members worldwide. Our global range 
        encompasses seminars and conferences held at sites throughout 
        the world; technical papers books and journals published by 
        international authors, and the Aerospace Database with over two 
        million aerospace citations accessible via the World Wide Web.

          ``. . . is dedicated to forging meaningful information 
        exchange between crucial players on the world's aerospace 
        stage. At our conferences, we bring together representatives 
        from governments, industry, and academia to debate and 
        collaborate on the new world of possibilities for the 
        international aviation, defense, and space communities. We 
        strive to make our events, publications, and services relevant 
        to aerospace professionals everywhere.

``Conferences and Seminars

        Much of (the Society's) international work centers around (the 
        Society's) organized, sponsored, or cosponsored international 
        conferences or seminars, including these events in 1996:

            <bullet> LGlobal Air & Space International Conference and 
        Exhibition (Arlington, Virginia);
            <bullet> L. . . Aeroacoustics Conference (State College, 
        Pennsylvania);
            <bullet> L. . . Atmospheric Flight Mechanics Conference 
        (Xian, China);
            <bullet> L2nd Test and Evaluation International Aerospace 
        Forum (London, England);
            <bullet> L3rd International Symposium on Experimental and 
        Computational Aerothermodynamics of Internal Flows (Beijing, 
        China);
            <bullet> L20th Congress of the International Council of the 
        Aeronautical Sciences (Sorrento, Italy);
            <bullet> L7th International Conference on Adaptive 
        Structures Technologies;
            <bullet> L47th International Astronautical Federation 
        Congress (Beijing, China);
            <bullet> L1st World Aviation Congress and Exposition (Los 
        Angeles, California);
            <bullet> L9th Conference on Astronautics (Ottawa, Canada); 
        and
            <bullet> L7th International Spaceplanes and Hypersonic 
        Systems and Technologies Conference (Norfolk, Virginia).

          ``. . . has over 25 professional development courses taught 
        by internationally renowned experts and attended by aerospace 
        professionals from around the world. Home study courses are an 
        excellent way to enhance your career without expensive travel 
        costs!

          ``The . . . Calendar of Events is the best way for 
        International members to keep up-to-date on the latest . . . 
        conferences, seminars, and home study courses.
``International Member Activities
          ``The 47th IAF Congress in Beijing included a special meeting 
        of . . . members from China, hosted by the members of the 
        International Activities Committee present at the Congress. 
        This followed a similar gathering the year before in Oslo with 
        . . . members from Norway, Sweden, and Denmark. It was an 
        occasion to meet old friends again and to recall that . . . 
        organized the first exchange of delegations between China and 
        the United States as early as 1979. A productive exchange of 
        views regarding . . . its activities, and benefits for 
        international members also took place.''
Ballistic Missile-Related Hardware Availability
    Each year, the Department of Defense disposes of used, obsolete, 
surplus military equipment that when new cost tens of billions of 
dollars. Some of the equipment is sold as is, and some is sold only 
after it has been made non-functional or reduced to scrap. With such a 
high volume of surplus and the emphasis that has been established on 
profits from its sale, not all key technologies and equipment are 
demilitarized and rendered useless before sold.
    The government provides a guide for purchasing surplus military 
equipment: How to buy Surplus Personal Property from the United States 
Department of Defense, Defense Reutilization and Marketing Service. The 
November 1994 edition lists:

Guided Missile Equipment
        1440: Guided Missile, Launchers, Components and Remote Control 
        Systems
        1450: Guided Missile Handling and Servicing Equipment

    The following is a current listing from the Internet Site the 
Department of Defense uses for surplus equipment sales:

``Welcome to Sales Assets

          Text Descriptions & Photographs

          (Photo Provided)

          FSG49--Maintenance or Service Equipment

          DTID: FE452870550197

          Item Name: Recorder-Reproducer, Electronic Data Processing
            Location: DRMO MINOT
            Date: 3-Jun-97
            Commodity Group: IIELEC
            Federal Supply Class: 4935
            NIIN or LSN: 00-004-3826
            Unit of Issue: EA
            Manufacturer Name: BOEING CO
            Model/Part/Serial Number: P/N 25-66564-14
            Rated Capacity: N/A
            Purpose and/or End Item: LGM-30 MINUTEMAN
            ID/Registration Number: N/A
            Size/Dimensions/Weight: EST WT 240 LBS
            Parts Missing/Detached: N/A
            Condition: USED--FAIR CONDITION
            Description: LTape RD-368/G, CI 10793AA, 110 VAC, In Hard-
        Sided Metal Transit Case.

            Last updated Thu Sep 11 07:26:20 EDT 1997''

    When surplus dealers purchase such equipment, it often enters the 
commercial market. Here is the receipt for two missile steering motors 
purchased for $100 each from a surplus dealer in Southern California:
[GRAPHIC] [TIFF OMITTED] TH268.017

    For several years, China has been one of the major buyers of U.S. 
military surplus.
    Sale of military equipment is not limited to the U.S. Government. 
As a result of the difficult economic conditions prevailing in Russia 
and other states of the former Soviet Union today, more than surplus 
military equipment is for sale, often at very low prices.
    In addition, the atmosphere of pervasive criminality in Russia, 
coupled with the uncertain future of the Russian economy and 
government, has created an environment in which military hardware and 
technology flows into the developing world through both official and 
``unofficial'' channels. Examples include: the sale of cryogenic fuel 
rocket engines to India; Russian long-range missile guidance components 
discovered in the Middle East; several reports of SS-18 technology 
transfers to China; and recent reports of active assistance to the 
Iranian missile development program. This list could continue, but the 
point has already been made clear: despite Russian official 
participation in missile-related arms control regimes like the MTCR, 
access to Russian technology and know-how is available for proliferant 
states.
    Government-to-government sales of complete ballistic missile 
systems include the sale of the 3,000 km. range CSS-2 system by China, 
the apparent sale of the ground-mobile M-11 by China to Pakistan, and 
the sale of SCUD missiles to Iran by North Korea. Note that ballistic 
missile trade is now taking place between countries of the developing 
world.
Ballistic Missile-Related Software Availability
    There is a large body of commercial and educational ballistic 
missile-related software available through textbooks, program 
libraries, and directly through the Internet. The following is an 
example of a commercial software-missile flight trajectory and 
targeting program on the Internet:

          ``. . . is our flagship product and is unique in the world of 
        launch simulation programs. It combines a graphical user 
        interface with accurate trajectory modeling, targeting and 
        optimization. The analytical power of . . . establishes a 
        remarkably higher level of productivity for the user . . . can 
        model any rocket, missile, or launch vehicle from any planet to 
        any set of burnout conditions. Comprehensive function allows 
        the user to directly model the vehicle, optimize the 
        trajectory, and cut and paste the resulting maps, charts, and 
        summary statements into presentation charts or documents. The 
        product is currently available for Windows 95 and Windows NT.''
Experienced Scientists, Engineers, and Technicians
    There is a glut on the world market of both advanced military 
hardware, including ballistic missile components, and skilled personnel 
to assist other nations with such hardware. Many of these individuals 
were among the elite of the Soviet Union, and now face deprivation and 
hardship if they do not take their skills abroad. Recent newspaper 
reports state that several hundred Russian and Chinese experts are 
currently in Iran helping the Iranians develop new ballistic missiles. 
My fellow witness, Dr. Carus, will describe the transfer of ballistic 
missile technology further.
How to Get Started:
    The big picture view of missile system development and integration 
is also available worldwide. The United States has published several 
documents that can be used as ``starter kits'' for long range ballistic 
system development. One such document is:

          Short Range Ballistic Missile (SRBM) Technology 
        Infrastructure Requirements for Third World Countries, AEDC 
        10405-04-91, September 1991, Arnold Engineering Development 
        Center, Air Force Systems Command. The Executive Summary of the 
        report contains the following:

          ``1.2 Objectives

          L  ``The primary objective of this report is to define the 
        infrastructure required for an indigenous Third World country's 
        short-range missile capability. These requirements are 
        described in terms of the technology and hardware that comprise 
        the design, manufacturing processes, assembly, testing, and 
        deployment of a tactical SRBM. A secondary objective is to 
        provide a training aid for ballistic missile fundamentals.''

    NASA has published similar unclassified documents.
Conclusion
    In view of the availability today of technical literature, 
education for students throughout the world, the world market in 
ballistic missile hardware and software, the availability of 
experienced scientists, engineers, and technicians, and the certain 
knowledge that long range ballistic missiles can and have been built, 
there are no insurmountable barriers to any nation developing such a 
capability.
    As Germany demonstrated with its V-2 program and the United States 
and U.S.S.R. with their intercontinental ballistic missile programs in 
the 1950s and 60s, political will and national priority are the major 
determinants of the rapidity with which national ballistic missile 
programs are brought to operational status. Even North Korea, which is 
one of the poorest and most isolated of nations, unable to provide 
subsistence for many of its inhabitants, not only has been able to 
develop a series of increasingly longer range ballistic missiles, but 
has become a major supplier of ballistic missiles and technology to 
some of the world's most irresponsible and hostile regimes. Other 
nations have demonstrated that it is possible to purchase complete, 
operational missile systems. Today, no missile development program will 
be obstructed by lack of capability or opportunity, and several 
countries hostile to the United States are supporting their ballistic 
missile acquisition programs with national will and determination.

    Senator Cochran. Thank you, Dr. Graham, for your 
interesting and complete review of the situation. We appreciate 
that very much.
    Dr. Carus, you may proceed with your statement.
    We do have a statement from General Schriever, which we can 
present.
    Mr. Graham. Yes.
    Senator Cochran. I will tell you what, why don't we go 
ahead and have Dr. Carus' statement now. Then you can summarize 
Dr. Schriever's statement and we will print it in the record.
    Dr. Carus, you may proceed.

 TESTIMONY OF W. SETH CARUS, VISITING FELLOW, NATIONAL DEFENSE 
                           UNIVERSITY

    Mr. Carus. Thank you, Mr. Chairman.
    It is an honor to be asked to testify before this 
Committee. There are few issues of greater national security 
interest to the United States than the proliferation of 
ballistic missiles, and for that reason, I am grateful for this 
opportunity to present my views in today's hearings.
    Before continuing, let me note that my testimony does not 
necessarily reflect the views of the National Defense 
University, where I am a visiting fellow, or the Center for 
Naval Analyses, my home organization, or the Department of 
Defense.
    I would like to focus on one main issue today: our ability 
to predict emerging missile threats. Sometimes we grow overly 
confident of our ability to monitor and predict developments in 
other countries. Despite the sometimes impressive achievements 
of those following foreign ballistic missile programs, there is 
considerable reason to worry that the United States could be 
surprised by the activities of other countries as they seek to 
acquire missile capabilities.
    In the next few minutes, I will review three cases in which 
the United States failed to accurately assess foreign ballistic 
missile activities. Using these cases, I would like to draw 
some general insights about potential limitations in our future 
ability as a Nation to predict foreign missile development 
activities.
    The first case I would like to look at involves the Iraqi 
Al Husayn missile. This was an extended-range version of the 
Soviet-designed SCUD. The program has surprised the United 
States in three distinct ways. First, the development of the 
missile itself was unexpected. Second, the United States 
underestimated the strategic importance of the missile during 
the period leading up to the Gulf War in 1991. Finally, the 
United States never detected the existence of Iraq's chemical 
and biological missile warheads.
    First, let me say a few words about the development of the 
Al Husayn. Iraq purchased 819 of the SCUD-B missiles from the 
Soviet Union. A large number of these missiles were fired at 
Iran during the course of the 1980-1988 Iran-Iraq War. What was 
not known, however, was that the Iraqis had launched an 
extensive effort to develop an extended-range version of this 
missile.
    In August 1987, the Iraqis reported that they had 
successfully tested a missile with a range of 650 kilometers. 
At the time, this claim was generally discounted. Some people 
believed that Iraq might be referring to a new Soviet-supplied 
system. Others simply believed that the Iraqis were lying. Only 
on February 29, 1988, when Iraq began firing Al Husayn missiles 
at Iranian cities, deep inside Iran, did it become clear that 
the Iraqis, in fact, did possess an extended-range missile. 
This initiated the final round of the so-called War of the 
Cities fought during the Iran-Iraq War. During the next 6 
weeks, Iraq fired approximately 189 of the Al Husayn missiles 
at Iranian cities, killing, according to Iranian estimates, 
perhaps around 2,500 people.
    It was the Iranians who analyzed the wreckage of the Al 
Husayns and determined that the missiles were, in fact, 
extensively modified SCUD-B's. The Al Husayn missile had a 
range of 650 kilometers, as the Iraqis had claimed, compared 
with only 300 kilometers for the standard Soviet-build SCUD-
B's. The Iraqis manufactured the Al Husayns by cannibalizing 
their existing SCUD missiles. Reportedly, they took three SCUD-
B's, cut them up and used the components to construct two of 
the extended-range missiles. Other modifications also were 
needed, including a reduction in warhead weight. The missiles 
were inaccurate and clearly had limited tactical military 
utility. Yet in the context of the Iran-Iraq War, these Al 
Husayns were a key strategic factor in forcing the Iranians to 
sue for peace.
    Unfortunately, the failure to identify the appearance of 
the Al Husayn missiles was followed by another failure of even 
greater significance when the United States failed to assess 
the potential importance of these missiles in the period 
leading up to the Gulf War in 1991. Because the Al Husayn 
missiles were inaccurate and had only a small warhead, the U.S. 
military and intelligence communities argued that the missiles 
had no or limited military significance. What these communities 
failed to understand was that the missile had considerable 
political importance, especially in Israel, and that this might 
have an impact on the ability of the United States to prosecute 
the war against Iraq.
    When Iraq began firing missiles at Israel, the government 
of Israel came under considerable pressure to intervene in the 
conflict to eliminate Iraq's missile launch capability. The 
United States, however, believed that it was essential to keep 
Israel out of the conflict in order to preserve the coalition 
against Iraq. As a result, the United States was forced to send 
Patriot missile batteries to Israel and to divert a significant 
number of combat aircraft to operations against the SCUD 
launchers. According to the U.S. Air Force, about 1,500 air 
strikes during Desert Storm were directed against SCUD targets, 
or about 3.5 percent of all the air strikes during the war. 
These missions involved many of the most capable aircraft 
available to the coalition forces. Yet, no missile launchers 
are known to have been destroyed in the attacks.
    Finally, after the end of the Gulf War, we learned that 
Iraq had produced a significant number of chemical and 
biological warheads for its SCUD missiles. While the 
intelligence community assessed that Iraq was capable of 
producing such warheads, it was never able to develop 
convincing supporting evidence. After the end of the conflict, 
the United Nations Special Commission, UNSCOM, began 
investigations of Iraq's nuclear, biological, and chemical 
weapons programs. In the course of their investigations, they 
were told that Iraq had set aside 75 SCUD warheads for use with 
nerve agents. It was only in late 1996, more than 5 years after 
the end of the war, as a result of information obtained after 
the defection of Husayn Kamal, that evidence emerged about 
Iraq's biological warheads.
    At that time, it was learned that Iraq had filled 25 
missile warheads with biological agents. Now, the effectiveness 
of these chemical and biological warheads is uncertain, but 
their strategic significance is self-evident.
    Moreover, we only have Saddam's word that most of the 
warheads were destroyed, since UNSCOM itself only eliminated 29 
of the 100 chemical and biological warheads. The result, the 
Iraqis claim to have destroyed on their own.
    The history of the Al Husayn program illustrates three 
issues that complicate efforts to follow foreign missile 
development programs. First, it is possible for missile 
development programs to go completely undetected. Quite simply, 
it is impossible to guarantee timely intelligence when a 
country pursues programs that do not fit our preconceived 
expectations.
    Second, even when information is available on missile 
capabilities, it is possible to misinterpret the significance 
of the detected capabilities. It is not enough to understand 
the technical capabilities of a missile. Even more important 
are assessments of potential military and strategic impact.
    Finally, existing missiles can be modified in ways 
difficult to detect. Possession of missiles armed with chemical 
and biological warheads clearly has extraordinary strategic 
importance, and the failure to detect the existence of such 
delivery systems demonstrate a serious limitation in 
intelligence-gathering capabilities.
    The second case I wanted to look at was the delivery of the 
Chinese missiles to Saudi Arabia. In some ways, the Saudi 
acquisition of Chinese DF-3 intermediate-range ballistic 
missiles, which is sometimes called the CSS-2, was even a 
greater surprise to the United States than the Iraqi Al Husayn 
program.
    As it happens, we now know a great deal about the Saudi 
efforts to acquire these ballistic missiles, in part due to 
some memoirs that were written by Saudi participants. It 
appears that the Saudis believed that their country needed 
ballistic missiles simply because so many other countries in 
the Middle East possessed them. At that time, at least eight 
other countries in the region had ballistic missiles. The 
Saudis tried to purchase ballistic missiles from the United 
States, and asked for permission to purchase the short-range 
Lance missile. This request was rejected.
    As a result, the Saudis looked for an alternative supplier. 
They soon found that the Chinese were willing to supply the DF-
3 intermediate-range ballistic missiles with a range of at 
least 2,500 kilometers. They conducted secret negotiations with 
the Chinese and arranged to purchase a complete missile force 
for an estimated $3 billion.
    According to press reports, the United States discovered 
the Chinese missiles by accident, and only as the missiles were 
being deployed. Apparently, a photographic interpreter 
identified some newly built bunkers in Saudi Arabia that looked 
suspiciously like those that he knew were associated with 
China's DF-3 ballistic missiles. At that point, the 
intelligence community initiated an intensive effort to 
identify the presence of the Chinese missiles.
    The Saudi missile purchase case illustrates two important 
points. First, it is difficult to anticipate developments when 
countries can acquire missile capabilities through purchase of 
complete, off-the-shelf systems.
    Second, making predictions when a country intends to rely 
on imported missiles requires an appreciation of the 
motivations of both potential purchasers and suppliers. 
Unfortunately, understanding motivations is difficult under the 
best of circumstances. Consider that the Saudi requirement for 
a ballistic missile was primarily motivated by political 
concerns, and thus could be met equally well by a missile of 
120-kilometer range, like the Lance, or with range of more than 
2,500 kilometers, like the Chinese DF-3.
    Finally, I would like to make a few comments about the 
discovery of SS-23 missiles in Eastern Europe. In the wake of 
the breakup of the Warsaw Pact, NATO countries discovered that 
several Eastern European countries possessed SS-23 medium-range 
ballistic missiles. The SS-23, which has a range of about 500 
kilometers, was banned by the terms of the Intermediate Range 
Nuclear Forces Treaty, the INF Treaty. Because of the military 
and political significance of these missiles, they were a 
priority target for intelligence organizations of the NATO 
countries. Indeed, there were few areas of the world subject to 
more intensive intelligence surveillance than Eastern Europe in 
the 1980's. Yet, the Western countries were totally unaware 
that the Soviet Union had given SS-23 missiles to East Germany, 
Czechoslovakia, and Bulgaria.
    The Western countries only learned about these missiles 
after the fall of the Communist regime in East Germany. In 
March 1990, the successor leadership in East Germany reported 
that the Soviet Union had provided 24 SS-23 missiles, 4 missile 
launchers, 4 missile transporters, and other supporting 
equipment to the East Germans. It is unclear when the SS-23's 
were given to the East Germans, but it appears they were 
deployed in Eastern Europe by the Soviet military in the 1984-
1985 time frame. The missiles were banned under the 1987 INF 
Treaty. However, the INF Treaty only covered missiles in the 
possession of the Soviet Union and the United States. So the 
Soviets claimed that they had not violated the INF Treaty, 
since the missiles were delivered before the INF Treaty was 
signed.
    This episode highlights one key issue about ballistic 
missiles. As long as missiles are not fired, they are easy to 
hide. Ballistic missiles do not necessarily require the 
extensive operational training that other weapon systems 
require. As a result, the country can acquire ballistic 
missiles and keep them hidden away in secret storage 
facilities.
    These cases illustrate the fundamental difficulties that 
are faced by those who follow trends in missile proliferations. 
Before concluding my remarks, I would like to make some 
additional points about two specific issues that affect 
assessments of missile programs, the impact of foreign 
assistance on indigenous missile development programs and some 
significant limitations of the missile technology control 
regime.
    Technology provided by foreign individuals, organizations, 
or governments can enable a proliferant country to develop 
unexpected new capabilities. This is particularly important 
when proliferating countries want to enhance sophistication or 
range. External support can permit a country to overcome 
technical challenges that otherwise would prevent it from 
developing more capable systems. Foreign assistance also can 
reduce costs and shorten the amount of time required to develop 
complete systems.
    The importance of foreign suppliers for missile development 
programs has been demonstrated time after time. Iran apparently 
depends on North Korea, Russia, and China for its missile 
technology. Recent press reports suggest that the Russian 
assistance to Iran has been growing, despite Russia's adherence 
to the MTCR. Syria and Egypt also rely on North Korea. The 
Indian Agni missile is based on a U.S. space-launch vehicle, 
while the Indian Prithvi is an adaptation of the Soviet SA-2 
surface-to-air missile. Similarly, the South Korean NHK-1 is an 
adaptation of the U.S. Nike Hercules surface-to-air missile.
    Most missile proliferation has resulted from transfers of 
complete systems from one country to another. Thus, Israel 
acquired its first ballistic missiles from France through the 
MD-620 missile development program. This also accounts for the 
widespread adoption of the SCUD missile produced either by the 
former Soviet Union or North Korea. Many of the countries with 
SCUD missiles, such as Vietnam, Yemen, and the United Arab 
Emirates, lack the indigenous capabilities to develop their own 
missiles, but by purchasing missiles from a foreign supplier, 
they have been able to acquire significant military 
capabilities.
    This type of activity has been the focus of the missile 
technology control regime, the MCTR. Thus, it is important to 
understand the extent to which the MTCR poses an obstacle to 
future missile developments and how its limitations might 
impede efforts to assess missile programs.
    Under the MTCR, adherents to the regime agree not to 
transfer complete ballistic missile and cruise missile systems 
that exceed certain capabilities and to control the export of 
certain technologies needed to produce ballistic or cruise 
missiles. The regime is supposed to treat equivalent systems, 
such as space-launch vehicles, as restrictively as ballistic 
missiles. It places equally strict restrictions on production 
technology and major components as well.
    The MTCR was negotiated among the G-7 countries in 1987, 
but since then, an additional 22 countries have joined the 
regime. In addition, some other countries have agreed to adhere 
to the provisions of the regime.
    The MTCR has had an important role in slowing the spread of 
ballistic missile technology. It provided the framework for the 
attack on the Condor missile program, a medium-range ballistic 
missile system developed in Europe by West German, Italian, and 
French companies, in cooperation with the governments of 
Argentina, Egypt, and Iraq. Similarly, the MTCR provided the 
context for negotiating an end to Soviet transfers of SCUD 
missiles, even before Russia agreed to adhere to the regime.
    Unfortunately, the regime has not ended all transfers of 
missiles or missile technology. At present, it appears that the 
MTCR has three main limitations which could have a significant 
impact on the ability of the United States to monitor missile 
development programs. First, there is no universal adherence. 
Second, enforcement of its limitations are unevenly applied. 
Third, as currently interpreted, it does not apply to space-
launch vehicles.
    There are a few countries that refuse to accept the 
technology transfer restraints of the MTCR. North Korea 
continues to offer its SCUD-B and SCUD-C missiles, and there 
are concerns that it intends to export its No Dong missile, 
which could have a range of as much as 1,200 kilometers with 
high-explosive warheads. Egypt, Iran, and Syria all depend on 
North Korean assistance for their missile programs. While the 
United States has attempted to convince the North Koreans to 
halt their missile exports, these efforts have shown scanty 
results. The latest rounds of talks was postponed recently due 
to the defection of the North Korean diplomats based in Egypt.
    The most serious problems, however, have resulted from the 
continued refusal of China to abide by its commitments to 
adhere to the MTCR. China has considerable expertise in the 
missile arena, and has demonstrated capability to produce 
missiles with great range and higher accuracies than those 
produced by North Korea. The United States began talks with the 
Chinese about missile transfers after the 1988 sale of the DF-3 
intermediate-range ballistic missiles to Saudi Arabia.
    On several occasions, the United States believed that it 
had received assurance from China that it would end its missile 
exports. Repeatedly, however, we have found China providing 
equipment that violated these assurances.
    In 1994, the Chinese told us once again of their commitment 
to the MTCR. According to Winston Lord, ``As a result of the 
sanctions we had imposed following China's sale of missile 
equipment to Pakistan, China agreed not to export ground-to-
ground, MTCR-class missiles, and reaffirmed its commitments to 
abide by the MTCR Guidelines and Annex.''
    Unfortunately, recent Pakistani claims to have tested a 
Hatf-3 missile with an 800-kilometer range casts doubts on 
these Chinese assurances. It is generally agreed that if 
Pakistan has such a missile, it either was provided a complete 
Chinese missile, such as the M-9, or if the missile was 
indigenously developed, the Pakistanis relied heavily on 
Chinese technical assistance.
    In the long run, however, the most serious potential 
problem for the United States is the possibility that space-
launch vehicles will be used to create ballistic missiles. The 
text of the MTCR requires that SLVs be treated as restrictively 
as ballistic missiles. However, the current administration, 
while requiring new MTCR members that are not nuclear weapon 
states to eliminate MTCR-proscribed missiles, allows such new 
members to continue SLV programs and to receive assistance on 
those programs from other MTCR members.
    Unfortunately, there is no real difference between a 
ballistic missile and a space-launch vehicle. Thus, many 
ballistic missiles have been adapted for use as space-launch 
vehicles. There are also examples of the reverse, as with the 
Indian Agni missile, which is based on the design of a space-
launch vehicle. These developments suggest that it will be 
possible to use a space program to mask efforts to develop 
ballistic missiles.
    Of particular concern is the extent to which new generation 
space-launch vehicles are beginning to look like ballistic 
missiles. New space-launch vehicles now under development 
generally require fewer people to operate, often are designed 
to be fired from mobile launchers, and are designed to be 
operated with minimal preparation. These characteristics are 
needed to support the new constellation of communication 
satellites that are now planned, which rely on large number of 
satellites operating in low earth orbit. Unfortunately, these 
same characteristics are useful for ballistic missiles as well 
as space-launch vehicles.
    This increases the possibility that countries might be able 
to hide ballistic missile programs under the guise of permitted 
SLV projects. Unfortunately, this will complicate the task of 
those responsible for assessing missile developments, since 
assessments will depend on difficult-to-make estimates of the 
motivations for pursuing SLVs.
    In conclusion, there is a great deal of reason for caution 
in attempting to make firm predictions about missile 
developments. We have been surprised in the past. It is likely 
that we will be surprised again in the future. Ultimately, we 
need to adopt policies that take into account the uncertainties 
that are inherent in this prediction process.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carus follows:]

                    PREPARED STATEMENT OF MR. CARUS

    Note: The views expressed in this testimony are those of the author 
and do not necessarily reflect the official policy or position of the 
Department of Defense or the U.S. Government.

    It is an honor to testify before this subcommittee. There are few 
issues of greater national security interest to the United States than 
the proliferation of ballistic missiles, and for that reason I am 
grateful for this opportunity to present my views to the subcommittee.
    Before continuing, let me note that my testimony does not 
necessarily reflect the views of the National Defense University, where 
I am a visiting fellow, or the Center for Naval Analyses, my home 
organization, or the Department of Defense.
    I would like to focus on one main issue in my presentation today: 
Our ability to predict emerging missile threats. Sometimes we grow 
overly confident of our ability to monitor and predict developments in 
other countries. Despite the sometimes impressive achievements of those 
following foreign ballistic missile programs, there is considerable 
reason to worry that the United States could be surprised by the 
activities of other countries as they seek to acquire missile 
capabilities.
    In the next few minutes, I will review three cases in which the 
United States failed to accurately assess foreign ballistic missile 
activities. Using these cases, I would then like to draw some general 
insights about potential limitations in our future ability as a nation 
to predict foreign missile development activities.
Iraqi Al Husayn missiles
    The Iraqi military developed an extended range version of the 
Soviet-designed Scud missile, which they called the Al Husayn. This has 
surprised the United States in three distinct ways. First, the 
development of the missile itself was unexpected. Second, the United 
States underestimated the strategic significance of the missile during 
the period leading up to the start of the Gulf War in 1991. Finally, 
the United States never detected Iraq's chemical and biological missile 
warheads.
    First, let me say a few words about the development of the Al 
Husayn missile. Iraq purchased 819 of the Scud B missiles from the 
Soviet Union. A large number of these missiles were fired at Iran 
during the course of the 1980-1988 Iran-Iraq War. What was not known, 
however, was that the Iraqis had launched an extensive effort to 
develop an extended range version of the Scud B.
    In August 1987, the Iraqis reported that they had successfully 
tested a missile with a range of 650 kilometers. At the time, this 
claim was generally discounted. Some people believed that Iraq might be 
referring to a new, longer-range Soviet-supplied missile. Others simply 
believed that the Iraqis were lying about possessing such a system. 
Only on February 29, 1988, when Iraq began firing Al Husayn missiles at 
Iranian cities did it become clear that the Iraqis possessed an 
extended range missile. This initiated the final round of the so-called 
``The War of the Cities.'' During the next six weeks, Iraq fired 
approximately 189 of the Al Husayn missiles at Iranian cities, killing 
an estimated 2,500 people.
    It was the Iranians who analyzed the wreckage of the Al Husayn's 
and determined that the missiles were extensively modified Scud B 
missiles. The Al Husayn missile had a range of 650 kilometers, compared 
with only 300 kilometers for the standard Soviet-built Scud B. The 
Iraqis manufactured the Al Husayns by cannibalizing existing Scud 
missiles. Reportedly, they took three Scud Bs, cut them up, and used 
the components to construct two of the extended-range missiles. Other 
modifications also were needed, including a reduction in the warhead's 
weight. The missiles were inaccurate and had limited tactical military 
utility. Yet, in the context of the war with Iran, the missiles were a 
key strategic factor in compelling the Iranians to sue for peace.
    Unfortunately, the failure to identify the appearance of the Al 
Husayn missiles was followed by another failure of even greater 
strategic significance when the United States failed to assess the 
potential importance of the missiles in the period leading up to the 
Gulf War in 1991. Because the Al Husayn missiles were inaccurate and 
had only a small warhead, the U.S. military and intelligence 
communities argued that the missiles had no military significance. What 
these communities failed to understand was that the missile had 
considerable political importance, especially in Israel, and that this 
might have an impact on the ability of the United States to prosecute 
the war against Iraq. When Iraq began firing missiles at Israel, the 
government of Israel came under considerable pressure to intervene in 
the conflict to eliminate Iraq's missile launch capability. The United 
States, however, believed that it was essential to keep Israel out of 
the conflict in order to preserve the coalition against Iraq. As a 
result, the United States was forced to send Patriot missile batteries 
to Israel and to divert a significant number of combat aircraft to 
operations against the Scud launchers. According to the U.S. Air Force, 
1,459 air strikes during Desert Storm were directed against Scud 
targets, or about 3.5 percent of all the air strikes during the war. 
These missions involved many of the most capable aircraft available to 
the Coalition forces, yet no missile launchers are known to have been 
destroyed in the attacks.
    Finally, after the end of the Gulf War, we learned that Iraq had 
produced a significant number of chemical and biological warheads for 
its Scud missiles. While the intelligence community assessed that Iraq 
was capable of producing such warheads, it was never able to develop 
convincing supporting evidence. After the end of the conflict, the 
United Nations Special Commission (UNSCOM) began investigations of 
Iraq's nuclear, biological, and chemical weapons programs. In the 
course of their investigations, they discovered that Iraq had set aside 
75 Scud warheads to use with nerve agents. It was only in late 1996, as 
a result of information obtained after the defection of Husayn Kamal, 
that evidence emerged about Iraq's biological warheads. At that time, 
it was learned that Iraq had filled 25 missile warheads with biological 
agents: 13 with botulinum toxin, 10 with aflatoxin, and 2 with anthrax. 
The effectiveness of these chemical and biological warheads is 
uncertain, but the strategic significance is self-evident. Moreover, we 
have only Saddam's word that most of the warheads were destroyed, since 
UNSCOM itself only eliminated 29 of these warheads. The rest the Iraqis 
claim to have destroyed on their own.
    The history of the Al Husayn missile program illuminates three 
issues that complicate efforts to follow foreign missile development 
programs. First, missile development programs can go completely 
undetected. Quite simply, it is impossible to guarantee timely 
intelligence when a country pursues programs that do not fit 
preconceived expectations. Second, even when information is available 
on missile capabilities, it is possible to misinterpret the 
significance of the detected capabilities. It is not enough to 
understand the technical capabilities of a missile. Even more important 
are assessments of potential military and strategic impact. Finally, 
existing missiles can be modified in ways difficult to detect. 
Possession of missiles armed with chemical and biological warheads has 
extraordinary strategic importance, and the failure to detect the 
existence of such delivery systems demonstrates a serious limitation in 
intelligence gathering capabilities.
Saudi DF-3 (CSS-2) missiles
    In some ways, the Saudi acquisition of Chinese DF-3 intermediate 
range ballistic missiles (which is sometimes called the CSS-2), was an 
even greater surprise to the United States than the Iraqi Al Husayn 
program.
    We now know a great deal about the Saudi efforts to acquire 
ballistic missiles, partly due to memoirs written by Saudi participants 
in the process. It appears that the Saudis believed that their country 
needed ballistic missiles simply because so many other countries in the 
Middle East possessed them. At that time, at least eight other 
countries in the region had ballistic missiles. The Saudis tried to 
purchase ballistic missiles from the United States, and asked for 
permission to purchase short-range Lance missiles. This request was 
rejected. As a result, the Saudis looked for an alternative supplier. 
They soon found that the Chinese were willing to supply the DF-3 
intermediate range ballistic missile with a range of 2,500 kilometers. 
They conducted secret negotiations with the Chinese, and arranged to 
purchase a complete missile force for an estimated $3 billion.
    According to press reports, the United States discovered the 
Chinese missiles by accident, and only as the missiles were being 
deployed. Apparently, a photographic analyst identified some newly 
built bunkers that looked suspiciously like those that he knew were 
associated with China's DF-3 ballistic missiles. At that point, the 
intelligence community initiated an intensive effort to identify the 
Chinese missiles.
    The Saudi missile purchase case illustrates two important points. 
First, it is difficult to anticipate developments when countries can 
acquire missile capabilities through purchase of complete, off-the-
shelf systems. Second, making predictions when a country intends to 
rely on imported missiles requires an appreciation of the motivations 
of both potential purchasers and suppliers. Unfortunately, 
understanding motivations is difficult under the best of circumstances. 
Consider that the Saudi requirement for a ballistic missile was 
primarily motivated by political concerns, and thus could be met 
equally well by a missile of 120 kilometers (the Lance) or 2,500 
kilometers (the DF-3).
East European SS-23 missiles
    In the wake of the break up of the Warsaw Pact, the NATO countries 
discovered that several East European countries possessed SS-23 medium 
range ballistic missiles. The SS-23, which has a range of 500 
kilometers, was banned by the terms of the Intermediate Range Nuclear 
Forces (INF) Treaty. Because of the military and political significance 
of these missiles, they were a priority target for intelligence 
organizations of the NATO countries. Indeed, there were few areas of 
the world subject to more intensive intelligence surveillance than 
eastern Europe in the 1980s. Yet, the Western countries were totally 
unaware that the Soviet Union had given SS-23 missiles to East Germany, 
Czechoslovakia, and Bulgaria.
    The Western countries only learned about these weapons after the 
fall of the Communist regime in East Germany. In March 1990, the 
successor leadership in East Germany reported that the Soviet Union had 
provided 24 SS-23 missiles, 4 missile launchers, 4 missile 
transporters, and other supporting equipment to the East Germans. It is 
unclear when the SS-23s were given to the East Germans, but it appears 
that they were deployed in East Europe by the Soviet military in the 
1984-1985 period. The missiles were banned under the 1987 INF treaty. 
However, the INF treaty only covered missiles in the possession of the 
Soviet Union and the United States, so the Soviets claimed that they 
had not violated the INF treaty.
    This episode highlights one key issue about ballistic missiles: As 
long as missiles are not fired, it is easy to hide them. Ballistic 
missiles do not necessarily require the extensive operational training 
that many other weapons systems require. As a result, a country can 
acquire ballistic missiles and keep them hidden away in secret storage 
facilities.
Additional issues
    These cases illustrate the fundamental difficulties that are faced 
by those who follow trends in missile proliferation. Before concluding 
my remarks, I would like to make some additional points about two 
specific issues that affect assessments of missile programs: The impact 
of foreign assistance on indigenous missile development programs and 
some significant limitations of the Missile Technology Control Regime 
(MTCR).
Foreign assistance
    Technology provided by foreign individuals, organizations, and 
governments can enable a proliferant country to develop unexpected new 
capabilities. This is particularly important when proliferating 
countries want to enhance sophistication or range. External support can 
permit a country to overcome technical challenges that otherwise would 
prevent it from developing more capable systems. Foreign assistance 
also can reduce costs and shorten the amount of time required to 
complete development.
    The importance of foreign suppliers for missile development 
programs has been demonstrated time after time. Iran apparently depends 
on North Korea, Russia, and China for its missile technology. Recent 
press reports suggest that the Russian assistance to Iran has been 
growing, despite Russia's adherence to the MTCR. Syria and Egypt also 
rely on North Korea. The Indian Agni missile is based on a U.S. space 
launch vehicle, while the Indian Prithvi is an adaptation of Soviet SA-
2 surface to air missile technology. Similarly, the South Korean NHK-1 
is an adaptation of the U.S. Nike Hercules surface to air missile.
    Most missile proliferation has resulted from transfers of complete 
systems from one country to another. Thus, Israel acquired its first 
ballistic missiles from France through the MD-620 missile development 
program. This accounts for the widespread adoption of the Scud missile, 
produced either by the former Soviet Union or North Korea. Many of the 
countries with Scud missiles, such as Vietnam, Yemen, and the United 
Arab Emirates, lack the indigenous capabilities to develop their own 
missiles. But by purchasing missiles from a foreign supplier, they have 
been able to acquire significant military capabilities.
    This type of activity has been the focus of the MTCR. Thus, it is 
important to understand the extent to which the MTCR poses an obstacle 
to future missile developments, and how its limitations might impede 
efforts to assess missile programs.
Impact of the MTCR
    Under the MTCR adherents to the regime agree not to transfer 
complete ballistic and cruise missile systems that exceed certain 
capabilities and to control the export of certain technologies needed 
to produce ballistic or cruise missiles. The regime is supposed to 
treat equivalent systems, such as space launch vehicles, as 
restrictively as ballistic missiles; it places equally strict 
restrictions on production technology, and major components as well. 
The MTCR was negotiated among the G-7 countries in 1987, but since then 
an additional 22 countries have joined the regime. In addition, some 
other countries have agreed to adhere to the provisions of the regime.
    The MTCR has had an important role in slowing the spread of 
ballistic missile technology. It provided the framework for the attack 
on the Condor missile program, a medium range ballistic missile system 
developed in Europe by West German, Italian, and French companies in 
cooperation with the governments of Argentina, Egypt, and Iraq. 
Similarly, the MTCR provided the context for negotiating an end to 
Soviet transfers of Scud missiles, even before Russia agreed to adhere 
to the regime.
    Unfortunately, the regime has not ended all transfers of missiles 
or missile technology. At present, it appears that the MTCR has three 
main limitations, which could have a significant impact on the ability 
of the United States to monitor missile development programs. First, 
there is not universal adherence. Second, enforcement of its 
limitations is unevenly applied. Third, as currently interpreted, it 
does not apply to space launch vehicles. These limitations create 
problems for those seeking to assess the potential impact of foreign 
support on missile proliferation.
    There are a few countries that refuse to accept the technology 
transfer restraints. North Korea continues to offer its Scud-B and -C 
missiles, and there are concerns that it intends to export its No Dong 
missile, which could have a range of as much as 1,200 kilometers with a 
conventional high explosives warhead. Egypt, Iran, and Syria all depend 
on North Korean assistance for their missile programs. While the United 
States has attempted to convince the North Koreans to halt their 
missile exports, these efforts have shown scanty results. The latest 
round of talks was postponed recently due to the defection of the North 
Korean diplomats based in Egypt.
    The most serious problems, however, have resulted from the 
continued refusal of China to abide by its commitments to adhere to the 
MTCR. China has considerable expertise in the missile arena, and has a 
demonstrated capability to produce missiles with greater range and 
higher accuracy than those produced by North Korea. The United States 
began talks with the Chinese about missile transfers since the 1988 
sale of the DF-3 intermediate range ballistic missile to Saudi Arabia.
    On several occasions, the United States believed that it had 
received assurances from China that it would end its missile exports. 
Repeatedly, however, we have found China providing equipment that 
violated such assurances. In 1994, the Chinese told us once again of 
their commitment to the MTCR. According to Winston Lord, ``as a result 
of the sanctions we had imposed following China's sales of missile 
equipment to Pakistan, China agreed not to export ground-to-ground 
MTCR-class missiles, and reaffirmed its commitments to abide by the 
MTCR Guidelines and Annex.'' Unfortunately, recent Pakistani claims to 
have tested a Hatf-3 missile with an 800-kilometer range casts doubt on 
these Chinese assurances. It is generally agreed that if Pakistan has 
such a missile, it either was provided a complete Chinese missile, such 
as the M-9, or if the missile was indigenously developed the Pakistanis 
relied heavily on Chinese technical assistance.
    The most serious potential problem for the United States, however, 
is the possibility that space launch vehicles will be used to create 
ballistic missiles. The text of the MTCR requires that SLVs be treated 
as restrictively as ballistic missiles. However, the current 
administration, while requiring new MTCR members that are not nuclear 
weapon states to eliminate MTCR-proscribed ballistic missiles, allows 
such new members to continue SLV programs and to receive assistance on 
those programs from other MTCR members.
    Unfortunately, there is no real difference between a ballistic 
missile and a space launch vehicle. Thus, many ballistic missiles have 
been adapted for use as space launch vehicles. There are also examples 
of the reverse, as with the Indian Agni missile, which is based on the 
design of a space launch vehicle. These developments suggest that it 
will be possible to use a space program to mask efforts to develop 
ballistic missiles.
    Of particular concern is the extent to which new generation space 
launch vehicles are coming to look like ballistic missiles. New space 
launch vehicles now under development generally require fewer people to 
operate, often are designed to be fired from mobile launchers, and are 
designed to be operated with minimal preparation. These characteristics 
are needed to support the new constellations communication satellites 
that are now planned, which rely on large numbers of satellites 
operating in low earth orbit. Unfortunately, these same characteristics 
are useful for ballistic missiles as well as space launch vehicles.
    This increases the possibility that countries might be able to hide 
ballistic missile programs under the guise of permitted SLV projects. 
Unfortunately, this will complicate the task of those responsible for 
assessing missile developments, since assessments will come to depend 
on difficult to make estimates of the motivations for pursuing SLVs.
Implications
    There is reason for caution in attempting to make firm predictions 
about missile developments. We have been surprised in the past. It is 
likely that we will be surprised again in the future. Ultimately, we 
need to adopt policies that into account the uncertainties that are 
inherent in the prediction process.

    Senator Cochran. Thank you, Dr. Carus.
    Dr. Graham, could you summarize for us General Schriever's 
statement? General Schriever was the father of our Atlas ICBM 
program, program manager, in fact, 40 years ago. And then we 
will just print his statement in the record in full.
    Mr. Graham. Yes, Mr. Chairman, I will do that.
    It is a pleasure to be representing him, as he is such a 
distinguished American who led us into the post-war era, 
matching and ultimately exceeding the Soviet ballistic missile 
program in the 1950's and the 1960's.
    He said that he wishes to focus only on the missile 
delivery platforms in the hearing today and not on the 
warheads, in that he was responsible for the development of 
intercontinental ballistic missiles. Of course, he had the 
weapons packages as well under his purview. And he wanted to 
share his experiences in order to assist you in drawing your 
own conclusions concerning when and how nations with interests 
hostile to the United States might acquire ballistic missiles 
capable of reaching us.
    Much speculation exists concerning the question of when and 
how nations can acquire ballistic missiles of intercontinental 
range. When it comes to the development of ballistic missiles, 
it is General Schriever's personal experience that increasing 
the range is actually quite simple to achieve. The more 
difficult problems he lists are accuracy and system 
integration.
    Over four decades ago, General Schriever undertook as a 
matter of a highest national priority the development of the 
intercontinental ballistic missile in the Atlas program, which 
became America's first ICBM, as you noted, Mr. Chairman. This 
program was accorded one of the highest priorities in our 
national security of the day. Remember that in the technology 
of the mid-1950's, that was an era of slide rules and vacuum-
tube computers. These were the analytical tools that he and his 
engineers used. He pioneered the use of solid-state computers 
for not only the program scheduling and control functions, but 
also for technical matters and for the guidance of the missile 
itself. Such use was not commonplace. However, today virtually 
anyone can purchase a computer with capabilities orders of 
magnitude greater than what he used at the time.
    He then goes on to note the breathtaking amount of 
information that is available today through the Internet and 
elsewhere and describes, somewhat along the lines that I 
described earlier, what that information is.
    He notes that this stands in stark contrast to the 
relatively rudimentary base of capabilities that we had 
available 40 years ago. In fact, he notes the biggest obstacles 
in building the Atlas ICBM are not obstacles today. How to 
address what were then the obstacles is now commonly taught in 
American graduate schools.
    General Schriever noted that improving a missiles range is 
among the easiest and most straightforward things to do. One 
needs only to add additional boosters, either on top or on the 
sides of the missile, or both, and that is what he did four 
decades ago by taking the Thor intermediate-range ballistic 
missile and adding an upper stage to create the first U.S. 
ballistic launch vehicle having intercontinental range. This 
``kluged'' or compiled upper stage demonstrated a 5,000-mile 
range, (about 8,300 kilometers), greater than the distance from 
North Korea to the West Coast. It achieved the required 3- to 
5-mile accuracy at the time, and indeed, if you look at our 
current fleet of space-launch vehicles, we still stack the 
stages and add strap-on boosters. The Delta launch vehicles 
uses strap-ons; the Delta itself a derivative of a Thor. The 
Atlas uses the Centaur upper stage for space launch, and the 
Titan-3 and Titan-4 use both strap-ons and upper stages to 
deliver the largest payloads to orbit.
    He wanted to remind you, too, that the United States 
imposed strict requirements on our ICBMs with respect to 
responsiveness and maintainability, as well as accuracy. The 
United States had originally sought an accuracy of 1,500 
meters, about 5,000 feet. However, the prospects for 
lightweight nuclear weapons with high yields enabled the United 
States to relax the accuracy requirements to 3 to 5 miles. This 
significantly reduced the guidance problem. Yet, even the 3 to 
5 miles of accuracy was aimed at war-fighting applications. If 
the only requirement for a ballistic missile were to hold 
population centers at risk, when using weapons of mass 
destruction, accuracy requirements could be further relaxed 
from even the 3- to 5-mile figure. Thereby, guidance becomes a 
relatively straightforward problem to solve, made even easier 
through the commercial availability of global positioning 
system signals, but in fact, commercially available inertial 
systems alone can also do this job.
    General Schriever identified systems integration as a major 
task when he managed the ICBM programs. This was due to the 
fact that virtually all of the components and subsystems were 
first of a kind. He pioneered, but by no means had time to 
refine, the idea of black-box testing as a way of testing 
subsystems. Such testing is now well refined and procedures are 
systematic and well known, and I believe the piece of equipment 
we showed you earlier was one such black-box tester.
    In addition, today, components of many key subsystems are 
available for purchase on the open market, leaving little 
question as to their operability.
    General Schriever also did a great deal of integrated 
system testing--ballistic missile testing. He did so due to a 
lack of either understanding of the basic physics--in some 
cases, for example, re-entry conditions--or analytical modeling 
capability, which as we mentioned was rather embryonic at that 
stage.
    Today, both the physics and the analytical capabilities are 
readily available. As a result, much of the integrated testing 
General Schriever conducted to assess a vehicle's structural 
response to dynamics of flight could today be done with 
computer analysis. The mysteries he worked his way through 40 
years ago are today taught as engineering problems in any good 
American graduate school.
    In conclusion, experience taught General Schriever that 
necessity is the mother of invention. That was the case in 
developing the U.S. ICBM program. The government provided the 
priority necessary to get the job done. For example, from 
program start to operational status, it required just over 5 
years in the case of the Atlas and the Titan programs which he 
led. The Minuteman, which he also led, which introduced solid 
propellants and launch from underground silos, became 
operational in just under 5 years.
    Our experience should lead us to be prudent regarding what 
unfriendly nations might do in today's environment with respect 
to their ICBM range and schedule. Furthermore, as Dr. Carus 
mentioned, intelligence estimates are not infallible. In 
General Schriever's opinion, the will, rather than the know-
how, is the key factor for nations to achieve an earlier ICBM 
capability than now projected.
    Thank you, Mr. Chairman.
    [The prepared statement of General Schriever follows:]

                PRERPARED STATEMENT OF GENERAL SCHRIEVER

    Mr. Chairman, Members of the Subcommittee, it is a pleasure to 
appear before you today to discuss the issue of missile proliferation 
in the information age. Concerns about the proliferation of weapons of 
mass destruction and the means to deliver such weapons are leading to 
serious debate--and in some cases action. While acquiring the weapons 
of mass destruction--the payload and the weapon's delivery platform--
such as the missiles--have some common obstacles, today I will focus on 
the missile delivery platforms only. Having been responsible for the 
development of our intercontinental ballistic missiles, I wish to share 
some of my experiences in order to assist you in drawing your own 
conclusions concerning when and how nations with interests hostile to 
the United States might acquire ballistic missiles capable of reaching 
us.
    Much speculation exists concerning the question of when and how 
nations with interests hostile to the United States could acquire 
ballistic missiles of intercontinental range. When it comes to the 
development of ballistic missiles, it is my personal experience that 
increased range is actually quite simple to achieve. The more difficult 
problems are accuracy and integration.
    Over four decades ago, we undertook as a matter of the highest 
national priority the development of the intercontinental ballistic 
missile in the Atlas program, which became America's first ICBM. This 
program was treated as one of the highest priority national security 
issues of its day. Remember that the technology of the mid-1950's, was 
an era of slide rules and vacuum tube computers. These were the 
analytic tools we used. We pioneered the use of solid state computers 
for not only program scheduling and control but also for technical 
matters. Such use is now commonplace. Furthermore, today virtually 
anyone can purchase a computer with capabilities orders of magnitude 
greater than we used.
    As Bill Graham has described, a breathtaking amount of information 
is also available through open sources--particularly the Internet. 
Today's availability of (1) design aiding software available on the 
Internet for free, (2) subsystem drawings available from patents and 
other sources, (3) state of the art technical papers in professional 
journals and (4) information from organizations whose primary mission 
is to promote the use of technologies that are relevant to long range 
ballistic missiles, stand in stark contrast to the relatively 
rudimentary base of capabilities we had available 40 years ago. In 
fact, our biggest obstacles to building America's first ICBM--the Atlas 
ICBM--are not obstacles today. How to address what then were obstacles 
is commonly now taught in America's graduate schools.
    As I said, improving a missile's range is among the easiest and 
most straightforward things to do. One needs only to add additional 
boosters--either on top or on the sides of an existing missile. That's 
what we did four decades ago by taking the Thor intermediate range 
ballistic missile and adding a upper stage to create our first 
ballistic launch vehicle having intercontinental range. This ``kluged'' 
upper stage demonstrated a 5,000 mile range. In terms of kilometers, 
that's about 8,300 kilometers, which is greater than the distance from 
North Korea to the west coast of the United States. It did so, while 
also achieving the required 3-5 mile accuracy. Indeed, if you look at 
our current fleet of launch vehicles, we still stack and strap-on 
boosters. The Titan and Delta launch vehicles use strap-ons while the 
Atlas uses the Centaur upper stage.
    Remember, we imposed strict requirements on our ICBMs with respect 
to responsiveness, maintainability as well as accuracy. We originally 
sought an accuracy of 1500 meters. However, the prospects for 
lightweight nuclear weapons with high yield enabled us to relax the 
accuracy requirements to 3-5 miles. This significantly reduced the 
guidance problem. Yet, even the requirement of 3-5 miles was aimed at 
war fighting applications. If the only requirement is to hold 
population centers at risk--when using weapons of mass destruction, 
accuracy requirements can even be further relaxed. Thereby guidance 
becomes a relatively straightforward problem to solve--made even easier 
through the commercial availability of global positioning system 
signals. In fact commercial available inertial systems can alone do 
this job.
    System integration was a major task during the time I managed the 
ICBM programs. This was due to the fact that virtually all of the 
components and subsystems were first of a kind items. We pioneered, but 
by no means refined, the idea of black box testing as a way of testing 
subsystems. Such testing is now well refined and procedures are 
systematic and well known. In addition, today components and many of 
the key subsystems are available for purchase on the open market--
leaving little question as to their operability. We also did a great 
deal of integrated testing. We did so due to a lack of either an 
understanding of the basic physics--for example, re-entry conditions--
or analytical modeling capability. Today both the physics and the 
analytical capability are readily available. As a result, much of the 
integrated testing we conducted--to assess a vehicle's structural 
responses to the dynamics of flight--could today be done using computer 
analysis. The mysteries we worked our way through 40 years ago are 
today taught as engineering problems in any good American graduate 
school.
    In conclusion, experience has taught me that necessity is the 
mother of invention. This was the case in developing the U.S. ICBM 
program. The government provided the priority necessary to get the job 
done. For example, from program start to operational status required 
just over 5 years in the case of both the Atlas and the Titan programs 
to reach operational status. The Minuteman, which introduced solid 
propellants, became operational in just under 5 years. Our experience 
should lead us to be prudent regarding what certain unfriendly nations 
might do in today's environment with respect to both ICBM range and 
schedule. Furthermore, intelligence estimates are not infallible. In my 
opinion, the ``will'' rather than the ``know-how'' is the key factor 
for these nations to achieve an earlier ICBM capability than now 
projected.

    Senator Cochran. Thank you very much.
    Let me ask a couple of questions about General Schriever's 
statement to both of you and get your reactions, and then I am 
going to yield to my good friend from Michigan for any 
questions he might have.
    General Schriever stated that he built this first ICBM by 
adding an upper stage to the intermediate-range Thor missile. 
Does this mean, based on this experience, that other nation 
states, if they decide to build ICBMs, and first developed a 
shorter-range missile capability, is this indicative of the 
capacity to then take that next step? Is it logical to assume 
that they could do that without a great deal of difficulty? Is 
that your conclusion?
    Mr. Graham. Yes, it is, Mr. Chairman, and I believe that is 
General Schriever's conclusion as well.
    He noted as a man of great precision that the Thor system 
was never made militarily operational as an ICBM. It was his 
backup to the Atlas Centaur program, but it was the first to 
achieve the long distance, and that capability of adding a 
second stage can certainly be used by countries today to extend 
missile range to intercontinental distances once they have 
achieved the shorter-range missiles.
    Senator Cochran. Dr. Carus, General Schriever also talked 
about the fact that during this time frame of just over 5 years 
from the start of the program to operational status, they, I 
assume, had some flight testing before the missiles were ready 
to use. Are you aware of what kind of testing program or how 
long that took, and is a testing program necessary in order for 
a nation state to develop and maintain a lethal and capable 
missile system?
    Mr. Carus. I am not closely familiar with that system, but 
if one looks at the early history of our ballistic missile 
program, say through the 1960's, it was typical for us to have 
large numbers of launches to test various parameters of the 
missile.
    I think we still tend to like to do a fair amount of 
testing, as did the Soviet Union. However, we know from 
experience that some of the proliferant countries are less 
concerned with reliability and performance issues than we are, 
and as a result, have not tested their systems as much as we 
would.
    Senator Cochran. I think in the Iran-Iraq War, we saw 
missiles being used that had not been tested, or the first we 
knew even of the existence of the missiles was when they fired 
them. Is that accurate?
    Mr. Carus. The Iraqis had fired the Al Husayn missile in 
some test flights, but only a small number. They developed a 
variant that, as far as I know, they had not tested before 
using.
    Senator Cochran. In terms of intelligence, too, we know 
about missiles when they are fired, but we do not necessarily 
know about them if they are not fired. Is this one of the 
challenges for the intelligence community? I think you touched 
on this in your prepared statement. What, if anything, can we 
do to improve our intelligence-gathering capability so we can 
have more reliable and accurate information about this kind of 
thing?
    Mr. Carus. Actually, there is a subset of the issue which I 
would like to address first, if I may, and that has to do with 
the problem of cruise missiles.
    In the case of cruise missiles, we could detect a test and 
still not know what its range is if it is never tested to its 
maximum range.
    In the case of ballistic missiles, I think we tend to 
believe that somebody would have to fire it at least once or 
twice before they would have any confidence that the system 
would work, which I think emphasizes the importance of us 
maintaining the resource investments and the various kinds of 
intelligence-gathering systems that we have deployed to monitor 
tests of this character in places like North Korea or Iran.
    Senator Cochran. To follow up on that, is it possible that 
we would not know a country had a long-range ballistic missile 
until it was launched?
    Mr. Carus. It is possible, and in fact, it appears to have 
happened. I believe it was late 1989. The Iraqis launched what 
they claimed was a space-launch vehicle, which nobody had known 
anything about until it went up into space. In fact, there was 
a little bit of confusion at the time because for a period of 
time we thought that they might have actually orbited 
something. As it turns out, the rocket blew up before it 
reached that kind of altitude, but I think that shows that it 
is possible to develop some fairly substantial systems on the 
quiet without us necessarily being able to detect them.
    Mr. Graham. Mr. Chairman, might I also add an answer to 
your reliable and accurate information question from the 
intelligence community?
    Senator Cochran. Sure.
    Mr. Graham. I believe they are addressing the wrong 
question, and have been addressing the wrong question for many 
years. The question they have been addressing is what do we 
know about developing countries' long-range ballistic missile 
capability. I believe the right question is what information do 
we know to persuade us that developing countries are not 
developing long-range ballistic missiles, and while that sounds 
like a nuance, another example of that would be the difference, 
say, between the intelligence reports in the early 1940's that 
they had no information the Japanese were developing shallow-
water torpedoes, and the discovery we made on December 7, 1941, 
at Pearl Harbor--that, in fact, we just did not know that the 
Japanese had developed shallow-water torpedoes and, therefore 
felt safe to put our Pacific fleet in a shallow-water harbor.
    The key information for military purposes is to what extent 
do you have confidence that a hostile capability is not being 
developed. That is a much harder question. Nonetheless, that 
seems to me to be the one of military relevance, and there are 
other things we can do in addition to just challenging the 
intelligence community with that question to get insight into 
what is going on in the developing world.
    Senator Cochran. Thank you. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Thank you for 
yielding to me so I could get in a few questions before I have 
to leave, and I appreciate that.
    First, Dr. Graham, you make reference to a number of 
documents which have been made public, which have technology 
information relative to short-range ballistic missiles on 
page--well, there is no page number, but in 1991--you are 
familiar with this--it says here that the Arnold Engineering 
Development Center of the Air Force Systems Command released a 
report. I think you testified that, in effect, I think you are 
saying, that that should not have been released. Is that your 
argument that that contained classified information in 
September of 1991?
    Mr. Graham. The classification is for government officials 
to decide.
    Senator Levin. Well, should it have been classified as 
secret?
    Mr. Graham. In my view, that document should have been 
restricted for official use in the United States, at an 
absolute minimum, and not made generally available.
    Senator Levin. Does that mean classified, or is that 
something less than classified?
    Mr. Graham. Well, ``For Official Use Only'' is one level of 
classification.
    Senator Levin. Well, I think it would be useful to ask the 
Defense Department, even though this is some years ago, as to 
why a document like that was not restricted, and the same thing 
with other information which is referred to in Dr. Graham's 
testimony. There are some NASA references in here.
    I think it would be helpful, Mr. Chairman, if the 
Subcommittee referred the documents to the Defense Department 
and to NASA and to request their comment on it since they are 
not here today. Would that be possible?
    Senator Cochran. Well, let's talk about that. I do not know 
whether there is a statute of limitations.
    Senator Levin. No, I am not talking about any action. I am 
just curious as to why a document like that, if they could help 
us out, would not have been restricted.
    Senator Cochran. I would be glad to join you in writing 
them a letter to ask them that.
    Senator Levin. Right, OK.
    Mr. Graham. I would add, Senator, that this type of 
information is widely available. I brought examples of it, but 
certainly nothing comprehensive you would find many places 
where this information would have to be classified if that were 
to be done.
    The point of my testimony was that this information is so 
widely available that that restriction of it at this point is 
going to be ineffective.
    Senator Levin. Well, I am not talking about restricting it 
at this point. I am talking about why wasn't material like this 
restricted, to try to get a philosophy from them, the same with 
the Patent Office. There is a reference in here to the Patent 
Office, Dr. Graham says, as another substantial source of 
information on missile technology and search time of 1.15 
seconds produced the following hits, and then there is 1,651 
patents on missiles and 3,160 patents on guidance systems. I 
mean, I think we ought to ask them to comment if this is a 
current program, a current policy. Why is it that that should 
be made public? Why is that not classified now, so we can get 
an idea as to what is the guidance that they have on this kind 
of an issue?
    Presumably, it is your testimony that that should not be 
made public. I assume that is why you are here today.
    Mr. Graham. No. My testimony is that this information is 
widely available, Senator. It is a policy judgment as to 
whether it should be made available or not. I am just stating 
the facts that it is, indeed, available.
    Senator Levin. Well, then I think it would be useful to ask 
the Patent Office as to what the basis of their policy judgment 
is. So, again, if the Chairman wants to----
    Senator Cochran. I think that is an appropriate thing for 
us to ask the Patent Office, what is their policy, how do they 
decide what goes out on the Internet, or is available on their 
page, or in any other way to the general public. That is 
appropriate, I think, and I would be glad to join you in that 
inquiry.
    Senator Levin. OK, thank you.
    On the surplus property issue, there is some Minuteman 
engines and a few other things that you have made reference 
here to, and I think it would be useful to find out from the 
Defense Department as to what is there or what steps were taken 
to make sure that no sensitive equipment was disposed of as 
surplus. I am sure there are very strict rules as to what is 
declared surplus and were those rules applied, and if so, why 
would this not be sensitive. If it is not sensitive and if it 
violated the rules, how did that happen, and if the rules are 
not strict enough, they ought to be more restrictive.
    Can you summarize, perhaps, the rules that applied before 
something can be declared surplus, like those old engines, 
perhaps the guts were taken out of them or they were in some 
way made useless other than as scrap? What are, in general, the 
rules before equipment can be declared surplus to avoid 
transferring equipment which might be militarily useful or 
sensitive?
    Mr. Graham. If it is all right, I will provide the details 
for the record, but the general process is that the equipment 
is reviewed, and it is given one of several categories of 
military applicability that extend all the way from not 
militarily applicable in any particular way and can be sold as-
is--an example might be a desk or a chair--to something which 
is extremely militarily critical and sensitive and has to be 
shredded or reduced to completely inoperable and unengineerable 
scrap before it is made available.
    There are a number of categories in between, where critical 
military components are removed or critical software is taken 
out. That is the process.
    The difficulty comes in when the Defense Department 
attempts to do that with literally tens of billions of dollars 
worth of surplus equipment each year. It is very easy for 
mistakes or oversights to occur in the process, and that is 
when critical military technology manages to be sent offshore.
    Senator Levin. Do you know what level of classification or 
elimination of any militarily sensitive parts were applied to, 
for instance, the recorder and the reproducer of that LGM-30 
Minuteman? I mean, was there a mistake made in that?
    Mr. Graham. I would have to review the details of that and 
ask the government if they viewed that as a mistake or not. 
That is their classification problem.
    Senator Levin. Do you know whether that was sold as-is or 
whether pieces were removed or what?
    Mr. Graham. Again, that would have to come from the Defense 
Department. I do know, though, that when an inquiry was made 
concerning the item that you saw in the display, subsequent to 
that inquiry from the congressional staff, the item was, in 
fact, destroyed before sale.
    Senator Levin. So that, that may have been a mistake?
    Mr. Graham. That would have to be directed to the people 
who did it. Apparently, its status changed after congressional 
staff inquiry.
    Senator Levin. Well, I think it would be useful to find out 
whether or not that was based on a misclassification or whether 
or not it was classified properly or whatever.
    I think it is helpful to get the agencies' responses when 
this kind of information surfaces, so we can get the full story 
and find out whether or not the classification was erroneous, 
whether it was mistaken, if so, were steps taken to avoid that 
in the future, was there anybody who perhaps was disciplined if 
there was sloppiness or negligence in the process. I think it 
is useful to hear from the agency on this kind of an issue, 
even though something may have happened that should not have. 
Maybe it is too late to stop that. At least it would sensitive 
agencies in terms of future activity, and if there answer is 
nothing inappropriate happened, we ought to have that for the 
record, too, I think, Mr. Chairman.
    I would make the same kind of request for that information. 
Let's get the agencies' position on that, and again, if they 
made a mistake, they ought to own up to it and let us know.
    Senator Cochran. What is your reaction to his comments, Dr. 
Graham?
    Mr. Graham. I think there are serious concerns. I think, in 
fact, this subject has a very long and unfortunately extensive 
history of items being misclassified and exported. So these are 
by no means singular or unique examples, and in my view, they 
are not even the most egregious examples.
    I think either through your GAO or other organs of the 
Congress, you can find a great deal of information on the 
subject already collected.
    Senator Levin. That is more reason, I think, to let the 
agencies know when this kind of information surfaces, Mr. 
Chairman. So I would urge that this testimony be sent off to 
the Department of Defense, the folks who declare things 
surplus, and ask for their comment on it.
    Senator Cochran. I think we should first check with the 
GAO----
    Senator Levin. Or the GAO.
    Senator Cochran [continuing]. And see if there have been 
some investigations in this area and see what they have on 
file. We might revisit it through an inquiry handled by them.
    Senator Levin. That would be great.
    Senator Cochran. Is that OK?
    Senator Levin. Then I just had a couple of questions, if I 
could, for Dr. Carus.
    On the question of whether or not a country would deploy a 
missile and consider it operational, if they had not tested 
it--and here, I want to talk about a country which is 
developing its own missile, not buying a complete missile. 
Obviously, that is a totally different situation. Were they 
developing a missile, would it not be usual, just prudent to 
test a missile that has to re-enter and hit a target before it 
is deployed?
    Mr. Carus. I think in the conditions that you specify, 
which is to say an indigenous development where you are not 
merely copying something that somebody else has provided you, 
that you would do at least some minimal level of testing, at 
least one launch.
    Whether you do more, I think, would depend on the extent to 
which you were concerned about reliability of the system.
    Senator Levin. On the Al Husayn missile that you made 
reference to in your testimony, you say that in August 1987, 
the Iraqis reported that they had successfully tested a missile 
with a range. Did they report that in 1987?
    Mr. Carus. They reported it at the time of the launch.
    Senator Levin. Prior?
    Mr. Carus. At the time of the launch.
    Senator Levin. At the time.
    And did we doubt that?
    Mr. Carus. My understanding--and I was not in government at 
the time, so I do not know what was officially going on, but my 
understanding is that, in fact, people did doubt that they had 
done what they claim, which is to say develop their own 650-
kilometer-range missile.
    Senator Levin. Do you know whether or not we noticed that a 
missile had been launched?
    Mr. Carus. Typically----
    Senator Levin. No. I mean in that case.
    Mr. Carus. In that particular case, as I said, I was not in 
government at that time. I know that most of the missiles 
launched during the Iran-Iraq War, which, of course, mostly 
were 300-kilometer-range missiles, were not detected at the 
time of launch.
    Senator Levin. You are talking about what range?
    Mr. Carus. The SCUD, the standard SCUD-B's. We detected 
some of them, but only a fraction of the ones that were 
launched.
    Senator Levin. The last question is about space-launch 
vehicle technology and the difficulty of determining whether 
technology would be used for space-launch vehicles or for 
ballistic missiles.
    How do you prevent access of nations to space-launch 
vehicle technology? How do you decide, or would you, which 
nations could have space-launch capability and which ones 
cannot?
    Mr. Carus. Well, I think as a starting point, one has to be 
skeptical of countries that formerly had ballistic missile 
programs, whether or not a space-launch program was going to be 
a way of hiding a ballistic missile program. So that, for 
example, a country like Brazil that pursued both space-launch 
programs and ballistic missile programs, one would at least 
have to be concerned that by giving up the ballistic missile 
program as the price of joining the MTCR that they may, in 
fact, just be trying to hide the continuation of their former 
ballistic missile.
    Senator Levin. How do you act on that concern? Do you 
prevent them from getting technology which could be used for 
space launch?
    Mr. Carus. Well, in this particular case, I think the 
appropriate response would have been to say that under the 
terms of admission to the MTCR that we would ask for a 
termination of space-launch vehicle programs, as well as 
ballistic missile programs.
    Senator Levin. But isn't the very guideline of MTCR--
doesn't it specifically say that it is not designed to impede 
national space programs?
    Mr. Carus. Well, when the MTCR was originally negotiated, 
it included the G-7 countries, all of whom in one way or the 
other participated in space-launch programs.
    However, like a lot of the export control regimes, they are 
technically not designed to impede legitimate activity. We also 
often take a skeptical view of what is going on. Thus, under 
the Chemical Weapons Convention, we are not going to impede 
chemical industries, but yet, we still pursue export controls 
because we recognize that while in theory chemical industries 
are a good thing, in practice sometimes they are not.
    Given that, in fact, we have seen this overlap between 
space-launch programs and ballistic missile programs, it just 
strikes me that there is reason to be skeptical.
    Now, if you take the position that it is impossible to 
constrain space-launch programs, I think it has some very 
serious implications over the long run for U.S. security 
because it suggests that we are going to see more ICBMs sooner 
rather than later.
    I mean, the advantage of a program intended to impede the 
spread of SLV programs is that, in fact, it reduces the chances 
that you are going to see additional ICBMs out there, which I 
think from our point of view is a good thing.
    Senator Levin. Right, but it also, then, increases the 
chances that people are not going to join the MTCR because 
every country has a right to engage in space launches, right?
    Mr. Carus. Well, the question there, I guess, is whether or 
not the tradeoff that you are making is one that you feel 
comfortable with. Whether getting somebody to join the MTCR and 
eliminate certain activities, while at the same time accepting 
they are pursuing other activities, is a fair tradeoff.
    I am not convinced that it is that clear-cut in an either/
or situation. To some extent, it is a matter of what carrots we 
are willing to offer, as well as what sticks.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    The Washington Times recently reported on the Russian and 
Chinese assistance to Iran, and specifically to their ballistic 
missile program by providing assistance in the form of wind 
tunnel testing of missile nose cones, the design of guidance 
and propulsion systems, development of solid fuel, and 
telemetry equipment. This sounds disturbing on its face.
    How concerned should we be about this kind of assistance 
being provided by Russian and Chinese technicians to Iran?
    Dr. Graham.
    Mr. Graham. Well, Mr. Chairman, there is no question that 
Russia and, to some degree, China are expert and experienced in 
these fields, and that by bringing them into Iran, they will 
certainly help accelerate Iranian ballistic missile development 
programs. These are key areas. My guess is if they have several 
hundred technicians in Iran, they are certainly not limited to 
these areas. These are critical areas in ballistic missile 
system design, and therefore, I think they can play a 
substantial role in letting the Iranians produce ballistic 
missiles of increasingly longer range in short times.
    Senator Cochran. I know that we have an active effort 
underway with Russia to try to discuss and resolve some of 
these problems and threats that this may pose to the Middle 
East, in particular, but also to worldwide stability.
    Dr. Carus, what suggestions would you give if you were a 
policy-maker in the government about what we can do to try to 
help influence the actions of the Russian and Chinese 
governments in this area?
    Mr. Carus. Well, I think the experience we have had is that 
you have to be willing to elevate issues like this to a very 
high level.
    As I mentioned in my testimony, we have been going around 
with the Chinese on this issue for nearly a decade now with 
very uneven success.
    Part of the problem in that particular case is that the 
Chinese are aware that when push comes to shove, we are 
disinclined to push the issue as seriously as it perhaps 
deserves, and as a result, essentially believe that they can 
get away with whatever they are doing.
    I think the same approach is likely to be true in the case 
of Russia. If, in fact, we take it as seriously as we should 
take it, it means that you have to elevate the issue to a very 
high level, which is to say Presidential level discussions, and 
you have to make it clear that if, in fact, the reports are 
true that the United States will take them very seriously and 
there will be repercussions.
    Senator Cochran. The Washington Post recently described the 
transfer to Iraq of gyroscopes from Russian long-range 
ballistic missiles. This took place nearly 2 years ago, in 
fact. Can you explain, Dr. Graham, why such devices are 
important, if they are, and how much help they would be to a 
country like Iraq in developing a long-range missile system?
    Mr. Graham. Well, the gyroscopes and the associated 
accelerometers, Mr. Chairman, are the elements that define the 
accuracy of the missile. They control the guidance and 
navigation of the missile and are used to direct it to the 
target. They are precision instruments, and while instruments 
that can achieve city-sized accuracy are available 
commercially, these were even finer instruments and can achieve 
greater accuracy than that needed just to hit cities. So I 
would view them as instruments used in advanced stages of an 
Iraqi ballistic missile program.
    By the way, they are not particularly valuable for short-
range missiles--missiles of the Al Husayn type of distances. 
They become really valuable when you go to longer distances, 
where small errors in the initial guidance will end up as 
bigger misses at the other end. So I believe they show an Iraqi 
interest in moving toward longer range ballistic missiles.
    Senator Cochran. As countries try to extend the range of 
their missile forces, are there technologies that are necessary 
for them to be able to accomplish this, and are those 
technologies available from the sources you described, Dr. 
Graham, in your testimony?
    Mr. Graham. There are such technologies, and I believe I 
identified most of them, Mr. Chairman.
    I did not emphasize in my discussion the similarity between 
the technologies necessary for space-launch vehicles, that is, 
the devices to carry satellites to orbit, and the technologies 
for ICBMs, but if you take space-launch vehicle technology and 
add to it the re-entry vehicle, you have an ICBM. I believe 
that any notion that we can allow countries to develop space-
launch vehicles and restrict their development of ICBMs is an 
exercise in U.S. self-delusion, and if the MTCR allows one and 
prohibits the other, it may be a diplomatic vehicle, but it 
certainly is not a vehicle of technical substance that will 
reduce the ICBM development of other countries.
    Senator Cochran. Well, given the facts and the similarities 
between those capabilities, developing space-launch capability 
and the ICBM capability, can you tell us if you know what 
countries are trying to acquire space-launched capabilities?
    Dr. Carus.
    Mr. Carus. Over the course of the last decade, there have 
been a lot of countries that at least have expressed an 
interest in this, many of which have not developed real 
capabilities.
    In addition, to the major suppliers of space-launch 
capabilities, which is to say the Chinese, the Russians, the 
Europeans through the ARIANE program, and the United States, we 
also have a number of other countries that periodically put 
things into orbit, such as Japan, India, Israel.
    In addition, there have been a number of countries which 
have not reached that stage, but which, in fact, are either 
actively pursuing or were in the recent past, which includes 
Brazil, Ukraine, Argentina, though that program has come to an 
end--South Africa, though I believe that program also has come 
to an end.
    Mr. Graham. Iraq.
    Mr. Carus. Iraq, South Korea, and Indonesia, though I think 
the Indonesians are in very early stages of exploration.
    So there are a lot of countries that have gone through this 
process at some time or another in the recent past.
    Senator Cochran. Dr. Graham, do you have any additional 
comments on that subject?
    Mr. Graham. No, Mr. Chairman. I think Dr. Carus has covered 
it. There may be a couple we have left off the list, but the 
list is long.
    Senator Cochran. Could you more fully explain why 
acquisition of a space-launch vehicle aids the long-range 
missile program?
    Mr. Graham. Well, yes, Mr. Chairman. The space-launch 
vehicle provides a booster and the associated guidance and 
navigation system to take the payload from the surface of the 
earth above the atmosphere into space, and from that point on, 
it is a matter of, first, Newton's laws as to when it comes 
back down again or goes into orbit, and that depends primarily 
on the direction and speed of the payload, and then, second, 
where it comes down is a function of the directions and speed 
of the payload and the re-entry characteristics of the vehicle 
that protects the payload, and of course, the aerodynamic 
forces that work on the reentry vehicle.
    These are all very well understood and have been 
extensively developed and documented over the last 40 years. 
The only piece of space-launch vehicle that is not an ICBM is 
the re-entry package, and the re-entry package can be developed 
initially in wind tunnels, on shorter-range vehicles, and 
through computational methods. So, very late in the development 
of a space-launch vehicle program, you can still turn it into 
an ICBM.
    I would say it goes the other way, too. All of our unmanned 
space-launch vehicles today began life as ICBMs, or at least as 
long-range ballistic missiles. The Atlas was the first ICBM and 
now is a space-launch vehicle. The Titan is now being used as a 
space-launch vehicle, and the Thor is now called the Delta, and 
that is a space-launch vehicle. So that gives you a sense of 
the interchangeability of these two roles for ballistic 
missiles.
    Senator Cochran. You have pointed out that we may not 
always know who is doing what in this missile development 
business--Dr. Carus specifically talked about the difficulty of 
knowing whether someone really had missiles available to use, 
until they used them--and one example we talked about was 
Iraq's SCUD missiles and the advanced version of the longer-
range missile that it used. Isn't another good example of that 
situation when North Korea tested its No Dong missile in 1993? 
I am told that the CIA was surprised, and there was no 
information really obtained relating to that launch, and that 
some describe that as an intelligence failure. Is that an 
accurate statement of what the facts were?
    Mr. Carus. I would like to be brief and just say that my 
own involvement in that case suggests to me that in that 
particular instance, the intelligence community was doing a 
pretty good job. There were some issues and concerns, but I 
would say that they were not surprised at that particular time; 
that, in fact, they were alerted to the fact that a missile was 
going to be fired and had prepared--had taken steps to try to 
follow it.
    As I said in the opening of my testimony, there are a lot 
of cases where the intelligence community has done a very good 
job. That, I would say, is a case where at least they were 
aware that something was going to happen when we are on the 
ball.
    Senator Cochran. Is there any new technique or regime that 
you would suggest be considered if the U.S. intelligence 
process is going to be improved?
    Dr. Carus, you mentioned ``preconceived expectations,'' 
where you try to decide what you should expect a country to do 
based on a certain set of facts. Should we start thinking about 
the capabilities in a different way?
    Mr. Carus. I think any time you are looking at a country 
which is trying to develop capabilities in a different context, 
both economically, politically, and also technologically, you 
have to be worried, and one of the problems we have is that 
countries trying to get longer-range missile capabilities are 
entering with access to a type of technology that, as we have 
discussed, was not available when we got into the business.
    So that, for example, you could imagine somebody taking a 
look at something like the U.S. Pegasus rocket, which is a 
small winged-looking vehicle designed to be launched from an 
aircraft to put things into orbit. That might be an alternative 
model for somebody to pursue from a traditional ICBM.
    My guess is that if somebody were to pursue such an 
approach, we would not be certain what was going on, simply 
because it was not following a traditional development program 
pattern.
    Senator Cochran. And it seems logical that some states who 
are seeking to develop ballistic missile capabilities may not 
want anybody else to know about it, and they would try to mask 
or obscure what they were doing from U.S. intelligence efforts 
or other efforts. Are there important activities that U.S. 
intelligence sources just would not be able to see?
    Mr. Carus. My general feeling is that if somebody wanted an 
intercontinental ballistic missile that they had any confidence 
in, they would have to test it in a way that we would pick up 
on it. The complexity comes in when you take the caveats to 
that.
    Thus, for example, if somebody had a missile that appeared 
capable of reaching the United States, I am not sure that the 
reliability of it would be significant in the context of an 
emerging crisis.
    Thus, for example, if going into the Gulf War, we had had 
concerns that Iraq had missiles that actually could have 
reached the United States, I am sure it would have had an 
impact on the debate here in Congress about how we should 
approach Iraq. Hopefully, we would have taken the same 
decision, but it would have completely changed the political 
context in which our decisions were being made.
    Mr. Graham. Mr. Chairman, could I add an answer to your 
question about intelligence procedures and processes we might 
follow to avoid being surprised?
    Senator Cochran. Yes, Dr. Graham, surely.
    Mr. Graham. We need to change the question from ``What do 
you see?'' to ``What do you have certain knowledge that 
countries are not doing?'' That is the militarily operable 
question.
    I believe we also have to scrutinize the assumptions that 
are made in intelligence analyses, assumptions such as that 
missiles will be developed entirely from indigenous sources 
without outside help, or other absurd assumptions. Nonetheless, 
those creep into intelligence analyses from time to time.
    As any good systems analyst knows, you can get any answer 
you want if you have complete control of the assumptions going 
into the analysis.
    I would also then add that we should probably develop a new 
variant of intelligence called intelligence anticipation. Right 
now intelligence only tells us about what people see, and you 
are not going to see anything today that is going to lead to 
substantial consequences 10 years from now. So we should be 
thinking about it and trying to analyze how countries with 
various stated intentions could act if they wished to carry 
them into the future in ballistic missiles and other areas.
    Finally, I would put something I call ``try-int,'' try 
intelligence--on the list; that is to say, rather than just 
watching to see if some country does something, if we think it 
is possible for a developing world country to do something, 
let's get a group together with the resources and education and 
access of that third-world country and let them try to do it 
and see what they come up with. That has actually been done a 
few times, not as far as I know by the intelligence community, 
but by other organizations in the government. The results have 
been startling and I believe profound. So I think there are 
many things that can be done to augment the intelligence 
process that would give us a better anticipation of what to 
expect in the foreseeable future.
    Senator Cochran. There is a comment in your statement, Dr. 
Carus, about the fact that Iran, Syria, and Egypt all have 
obtained from North Korea information and technology for 
missile development. What accounts, if you know, for North 
Korea's apparent expertise in this area of technology?
    Mr. Carus. Well, I think it actually goes back to the 
points that were made earlier that there was a will and a 
perceived need to have this kind of capability. So the North 
Koreans in the early 1980's went out of their way to acquire 
ballistic missiles, the SCUDs, that they could use as copies.
    They had earlier tried to buy them from the Chinese without 
success, and they basically got other people to pay the 
financial cost, took advantage of the fact that they had some 
technical expertise, and reverse-engineered this missile.
    I think what that primarily reflected was the fact that 
they had a national leadership that made this a high priority, 
both for their own national security and also as an export 
item, because it has been a major earner of hard currency for 
the Iranians in the past.
    In many ways, it is very surprising because North Korea is 
not necessarily a technologically sophisticated country. 
However, they clearly had the technology needed in order to 
pursue a 1940's, early 1950's vintage missile system.
    Senator Cochran. There was a comment in Dr. Schriever's 
statement which described design requirements in terms of 
accuracy, operational readiness, and maintainability. If these 
requirements are not necessary, how much easier is it for a 
country to build a long-range ballistic missile?
    Mr. Graham. Well, relaxing these certainly make it 
substantially easier. Having the requirement that the missile 
be available on short notice, 24 hours a day, is an extremely 
difficult challenge because it does not mean you can launch it 
when you are ready. It means you launch it when you are told 
to, and by relaxing that, by being able to launch when you know 
your missiles are in good condition and full working order, it 
lowers the long-term reliability requirements on the missile, 
and that, in turn, greatly eases the engineering problems of 
building the missile.
    Senator Cochran. To what extent does the assistance that 
comes from Russia and China to Iran to develop a missile of 
2,000-kilometers range also help Iran obtain longer-range 
missiles?
    Mr. Graham. I think the 2,000-kilometer missiles are the 
step before you go to the longer-range missiles, and it will 
give them the leverage by the techniques that General Schriever 
discusses, either in terms of add-on boosters or add-on stages, 
to let them go to a substantially longer-range missile in a 
period that is months to years, but certainly not decades.
    Senator Cochran. Dr. Carus.
    Mr. Carus. If I may add to that, sir, one of the biggest 
problems the Iranians have had in their missile program is 
something that the General referred to in his testimony which 
was systems integration. It is the reason why the Iranians, who 
have at least the same technical competence as the North 
Koreans were, in fact, forced to go to the North Koreans to buy 
turnkey SCUD production facilities and complete SCUDs.
    The biggest concern I have about this external assistance, 
especially these recent reports about Russian assistance, is 
that the Iranians would receive help in learning how to 
undertake these kinds of systems integration. Once they are 
able to do it once, whether it is on a 500-kilometer-range 
missile or a 2,000-kilometer-range missile, they are going to 
be able to do it again and again because this is a skill that 
can be reapplied.
    If, in fact, that is what they learn, it will have serious 
long-term repercussions in terms of our ability to constrain 
Iranian missile programs.
    Senator Cochran. A missile that has not been operationally 
tested is, of course, less reliable than one that has, but can 
such a missile still be considered sufficiently reliable or 
lethal, as a threat to use in a crisis or to create enough of 
an impression of being useful for a potential foe of the United 
States or some of our allies?
    Mr. Carus. We have a little bit of experience with this. It 
is reported that of the North Korean-supplied missiles that the 
Iranians used during the Iran-Iraq War, something on the order 
of 10 percent of them blew up in the launch process. What that 
tends to suggest is that countries that have different criteria 
of operational effectiveness are not going to demand the same 
level of perfection that we would; that, in fact, for their 
purposes, 90 percent of them getting in the air is fine. They 
do not need perfection.
    Similarly, from what we could see, the Iraqi missiles had 
tremendous problems. They were breaking up in the air. It is 
one of the things the Iranians noticed about those missiles. It 
is one of the reasons our missile defenses had problems in 
dealing with the Iraqi missiles. From the Iraqi point of view, 
that was OK. They did not need a system of the same operational 
and militarily effectiveness as we would demand, which again I 
think suggests that for some of these countries they will 
accept levels of quality that would be simply unacceptable here 
in the United States.
    Senator Cochran. Dr. Carus, you suggested that an effective 
Missile Technology Control Regime will make it easier to track 
missile development programs, I think. If that is what you said 
or believe, what could be done to enhance the effectiveness of 
the MTCR?
    Mr. Carus. I think the first thing that has to be done is 
enforce its existing provisions. If a country supplies 
technology in violation of the agreement, whether it is because 
they are a formal member of the agreement or because they have 
agreed to adhere to its provisions, we have to be willing to 
apply a tremendous amount of pressure to get them to comply.
    Second, I think we have to be very skeptical about efforts 
by countries to acquire so-called legitimate space-launch 
vehicle programs. At one time, the United States took a hard 
line on that issue. We did not allow the Argentineans to join 
the MTCR until they killed the Condor program, even though the 
Argentineans argued that it could be used as a space-launch 
program, which in fact is true.
    In the last few years, we have been less hard line on that, 
and I think it has been a mistake. It would be appropriate, I 
think, to take another look at that policy.
    Senator Cochran. How do we extend the controls or 
restrictions on the assistance provided by technologists or 
scientists that we have talked about and that you all have 
discussed as an issue and a challenge? How do we respond to 
that more effectively?
    Mr. Carus. Well, we have taken steps to try to help 
countries that want to respond to it. We have training programs 
that U.S. Customs and other law enforcement agencies provide to 
help some of the newly independent states learn how to 
implement export control regulations. To the extent that those 
countries are interested in enforcing these kinds of laws, I 
think there are mechanisms to help them do it better.
    The difficulty comes really in cases where there is less 
enthusiasm for enforcing laws of this kind.
    Mr. Graham. As a practical matter, too, Mr. Chairman, 
restricting that information is going to be very difficult, and 
I do not think whatever actions we take, we will find much 
comfort in them, but, certainly, the United States could take 
more of an interest in the fields of study that foreign 
students, particularly from countries like Iran, Iraq, Libya, 
Syria, China, are going to pursue when they come into advanced 
education in the United States.
    Once visas are issued, as I understand the process, the 
foreign student's actual course of study is neither checked or 
monitored by the U.S. Government. It seems to me it would make 
sense to review the visas in terms of what it is they say they 
are going to study and then periodically review what it is they 
are studying to see if those correspond.
    I think we could go through the whole process. The 
professional organizations could be sensitive to the concerns 
of missile proliferation. I am sure they are to some degree, 
but that could probably be raised, and we could tighten up our 
own surplus equipment disposal and encourage our allies to do 
that as well. So I think there are opportunities all along the 
way.
    These will have the effect of slowing down the transfer 
process to some degree. By no means will they stop it, however.
    Senator Cochran. It seems, too, that the proliferation of 
information through the availability of the Internet and other 
sources creates another question, at least, about what we can 
do to mitigate the dangers created by the expansion and 
accessibility of so much information.
    I am not suggesting we need a worldwide book-burning or 
document-shredding. That is not the answer, of course, but what 
is? Is there anything that we can contemplate doing about that?
    Mr. Carus. Well, I think the reality is that if a country 
is willing to expend the resources and devote the--and make the 
program a national priority, that we cannot count on 
successfully stopping missile development programs.
    We have had successes in raising the cost and slowing 
programs down, and in some of those cases, there have been 
political changes that have led to the termination of the 
programs. That, I think, is sort of our best case.
    However, as we have seen in some countries that are less 
tractable, we are not going to have successes across the board.
    Senator Cochran. Dr. Graham.
    Mr. Graham. Ultimately, I believe the United States is 
going to have to realize that in the future, it will live in a 
world where an increasing number of countries, not all friendly 
to the United States, will have ballistic missiles of 
increasing range, which will eventually not only reach our 
allies around the world, but reach our homeland as well.
    Senator Cochran. The export controls and multilateral 
regimes like the Missile Technology Control Regime can help 
slow the spread of missile technology, as you suggest, but even 
the best controls on sensitive technology are never 100-percent 
effective, we have found. Is the advent of the information age 
and the increasing availability of missile technology further 
undermining the effectiveness of technology controls?
    Mr. Graham. I think, without question, the effectiveness of 
it is questionable to begin with, and it undoubtedly becomes 
effective as information is more widely and more rapidly 
disseminated.
    Senator Cochran. Well, this seems to me to be a very strong 
argument for a more adequate and effective defense capability. 
Is that a conclusion that you draw, Dr. Graham or Dr. Carus?
    Mr. Graham. Yes, it is, Mr. Chairman. I do not know how 
else the United States can live in a world of increasing long-
range ballistic missiles in the hands of an increasing number 
of countries, some of which are quite open about their 
intention to be hostile to the United States and to work 
against our purposes in the world.
    Senator Cochran. Dr. Carus.
    Mr. Carus. I think there is certainly, to some extent, 
widespread agreement on that issue. Certainly, the 
transformation that I have seen over the last decade in terms 
of theater missile defenses indicates that we have really gone 
a long way in that regard.
    When I first got involved in that issue in the mid-1980's, 
I can remember the antagonism that existed towards theater-
level missile defenses. In the wake of the Gulf War, I am not 
sure that kind of antagonism exists anymore, which I think is a 
good thing because it is very clear that under today's 
circumstances, our military forces and friendly countries are, 
even as we speak, vulnerable to missile attacks using certainly 
chemical and maybe biological warheads, as well as conventional 
warheads.
    We have efforts underway to try to defend against those 
missiles, other than active defenses, but at the moment, you 
would have to say that those alternatives are not yet mature. 
We have no reliable way of hunting down and killing missile-
launchers, for example.
    So that the only thing that we really have to provide at 
least some level of protection for our forces and for our 
allies are active missile defense, and I do not think that is 
going to change any time in the near future.
    Senator Cochran. Let me thank you both for your very 
generous commitment of time and effort to help us with this 
hearing, preparing your statements and being here presenting 
your testimony and answering our questions. You have been very 
patient and very, very helpful, and for that, we are grateful 
to you. We express the appreciation of our Committee for your 
assistance.
    This concludes our hearing. We will have another hearing 
soon, and we will make an announcement about that. The 
Committee is adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]


                                <all>
</pre></body></html>
